APPENDIX

1a
APPENDIX A
NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1019
INO THERAPEUTICS LLC, MALLINCKRODT
HOSPITAL PRODUCTS INC., MALLINCKRODT
HOSPITAL PRODUCTS IP LTD.,
Plaintiffs-Appellants,
v.
PRAXAIR DISTRIBUTION INC., PRAXAIR INC.,
Defendants-Appellees.
Appeal from the United States District Court for the
District of Delaware in No. 1:15-cv-00170-GMS,
Judge Gregory M. Sleet.
Decided: August 27, 2019
Before PROST, Chief Judge, NEWMAN, and DYK,
Circuit Judges.
Opinion for the court filed by Chief Judge PROST.
Opinion concurring in part and dissenting in part filed
by Circuit Judge NEWMAN.
PROST, Chief Judge.
INO Therapeutics LLC, Mallinckrodt Hospital
Products Inc., and Mallinckrodt Hospital Products IP
Ltd. (collectively, “Mallinckrodt”) sued Praxair Distribu-

2a
tion Inc. and Praxair Inc. (collectively, “Praxair”) for patent infringement. Mallinckrodt asserted five patents
related to methods of administering inhaled nitric oxide,
including U.S. Patent Nos. 8,282,966 (“the ’966 patent”),
8,293,284 (“the ’284 patent”), 8,795,741 (“the ’741 patent”), 8,431,163 (“the ’163 patent”), and 8,846,112 (“the
’112 patent”) (collectively, “heart failure patents” or “HF
patents”). Mallinckrodt also asserted five patents related to devices and methods for administering gas, including U.S. Patent Nos. 8,573,209 (“the ’209 patent”),
8,776,794 (“the ’794 patent”), 8,776,795 (“the ’795 patent”), 9,265,911 (“the ’911 patent”), and 9,295,802 (“the
’802 patent”) (collectively, “delivery system infrared patents” or “DSIR patents”). After a bench trial, the
United States District Court for the District of Delaware held all claims of the HF patents ineligible and all
claims of the DSIR patents not infringed. For the reasons below, we affirm-in-part, vacate-in-part, and remand.
BACKGROUND
I
Inhaled nitric oxide (“iNO”) is a gas that is well
known in the prior art. The U.S. Food and Drug Administration (“FDA”) approved New Drug Application
(“NDA”) No. N020845 for 100 and 800 ppm nitric oxide
for inhalation on December 23, 1999.
Use of iNO gas as a treatment has been “studied
and reported in the literature.” ’741 patent col. 1 ll. 25–
26. In particular, since at least the early 1990s, iNO gas
has been used to treat infants experiencing hypoxic
respiratory failure. According to the Background of
the Invention of the ’741 patent, iNO “is an approved
drug product for the treatment of term and near-term
neonates ... having hypoxic respiratory failure associat-

3a
ed with clinical or echocardiographic evidence of pulmonary hypertension.” Id. at col.1 ll. 20–24. Hypoxic
respiratory failure is “a condition where oxygen levels
in the blood are too low. Nitric oxide functions to dilate
blood vessels in the lungs and can thereby improve
blood oxygenation.” Praxair Distribution, Inc. v.
Mallinckrodt Hosp. Prod. IP Ltd., 890 F.3d 1024, 1028
(Fed. Cir. 2018) (citing ’112 patent col. 3 ll. 34–56).
A dose of 20 ppm iNO was also well known in the
prior art for treatment of hypoxic respiratory failure in
infants. J.A. 24–25. For example, one of the asserted
patents cites as prior art U.S. Patent No. 5,485,827
(“Zapol”), which discloses administering 20 ppm iNO
treatment. The Zapol patent issued in 1996.
In 2004, Ikaria Inc. (“Ikaria”) commissioned a study
involving iNO gas, referred to as the INOT22 study.
The INOT22 study observed adverse events in certain
patients. Specifically, the study concluded that neonates
with a congenital heart condition—known as left ventricular dysfunction (“LVD”)—were at an increased risk
of pulmonary edema when treated with iNO gas. See
J.A. 22; ’741 patent col. 9 ll. 48-52. According to the ’741
patent specification, the observation of pulmonary edema among patients in the INOT22 study was “of interest
because pulmonary edema [had] previously [been] reported with the use of iNO in patients with LVD, and
may be related to ... overfilling of the left atrium.” ’741
patent col. 13 ll. 26–29.
The effect of iNO gas on a newborn with LVD is a
matter of human physiology. J.A. 22. For patients
with LVD, the left ventricle cannot sufficiently pump
blood out of the heart. LVD patients depend on the
right ventricle to shunt blood out, a process that requires constriction of the blood vessels. Administering

4a
iNO gas to “neonates or children with LVD may cause
pulmonary edema because iNO causes the pulmonary
vessels to relax.” J.A. 22 (citing Trial Tr. 1201:5–11).
Relaxation of those vessels leads to increased pulmonary blood flow, which causes increased pulmonary capillary wedge pressure (“PCWP”), which in turn may
lead to pulmonary edema.1 Id. (citing Trial Tr. 1201:12–
17, 1203:9–16).
Beginning in 2009, Ikaria’s subsidiary, INO Therapeutics, began pursuing patents based on this observation. Eventually, it obtained the five HF patents,
which share a common specification. Claim 1 of the ’741
patent is representative. Claim 1 recites:
1. A method of treating patients who are candidates for inhaled nitric oxide treatment, which
method reduces the risk that inhalation of nitric
oxide gas will induce an increase in pulmonary
capillary wedge pressure (PCWP) leading to
pulmonary edema in neonatal patients with hypoxic respiratory failure, the method comprising:
(a) identifying a plurality of term or near-term
neonatal patients who have hypoxic respiratory
failure and are candidates for 20 ppm inhaled
nitric oxide treatment;
(b) determining that a first patient of the plurality does not have left ventricular dysfunction;
(c) determining that a second patient of the
plurality has left ventricular dysfunction, so is
at particular risk of increased PCWP leading to
1

Pulmonary capillary wedge pressure “provides an estimate
of left atrial pressure.” ’741 patent col. 5 ll. 20–22.

5a
pulmonary edema upon treatment with inhaled
nitric oxide;
(d) administering 20 ppm inhaled nitric oxide
treatment to the first patient; and
(e) excluding the second patient from treatment with inhaled nitric oxide, based on the determination that the second patient has left
ventricular dysfunction, so is at particular risk
of increased PCWP leading to pulmonary edema upon treatment with inhaled nitric oxide.
’741 patent col. 14 ll. 28–49 (emphases added).
INO Therapeutics also obtained patents related to
devices and methods for providing iNO gas to patients
via gas cylinders. These patents, known as the DSIR
patents, share a specification. Claim 1 of the ’794 patent is representative of the device claims and reads:
1. A gas delivery device comprising:
a gas source to provide therapy gas comprising
nitric oxide;
a valve attachable to the gas source, the valve
including an inlet and an outlet in fluid communication and a valve actuator to open or close the
valve to allow the gas through the valve to a
control module that delivers the therapy gas
comprising nitric oxide in an amount effective to
treat or prevent hypoxic respiratory failure; and
a circuit including:
a memory to store gas data comprising one or
more of gas identification, gas expiration date
and gas concentration; and

6a
a processor and a transceiver in communication
with the memory to send and receive signals to
communicate the gas data to the control module that controls gas delivery to a subject and
to verify one or more of the gas identification,
the gas concentration and that the gas is not
expired.
Id. at col. 17 ll. 15–32 (emphases added).
II
Ikaria eventually merged with Mallinckrodt Hospital Products Inc. Mallinckrodt Hospital Products IP
Ltd. now owns approved NDA No. N020845 for nitric
oxide. Mallinckrodt is the exclusive supplier of iNO gas
in the United States, which it sells under the brand
name INO max®.
Praxair is an industrial gas company seeking to sell
generic iNO gas cylinders. Praxair filed an Abbreviated New Drug Application (“ANDA”) seeking approval
to market Noxivent, a generic form of 100 and 800 ppm
nitric oxide gas for inhalation.2 J.A. 8. In addition,
Praxair acquired a company that developed a gas delivery system, called the NOxBOXi iNO system.
Mallinckrodt sued Praxair in the District of Delaware in 2015. Mallinckrodt alleged that Praxair’s proposed ANDA product, Noxivent, infringed Mallinckrodt’s HF patents and device claims of the DSIR patents
when used with Mallinckrodt’s DSIR system. Mallinckrodt also alleged that Praxair’s proposed NOxBOXi device infringed a method claim of the DSIR patents.

2

Praxair filed a letter advising that the FDA approved its
ANDA for Noxivent on October 2, 2018.

7a
The case proceeded to a seven-day bench trial. In
September 2017, the district court issued a memorandum and order concluding that the HF patents were
ineligible under § 101 and the DSIR patents were not
infringed.3 J.A. 1–45, 46. The district court entered
judgment. J.A. 47–48.
Mallinckrodt now appeals.
under 28 U.S.C. § 1295(a)(1).

We have jurisdiction

DISCUSSION
I
For entry of judgment under Rule 52(c), we review
the district court’s factual findings for clear error and
its legal conclusions de novo. Intellectual Ventures I
LLC v. Symantec Corp., 838 F.3d 1307, 1312 (Fed. Cir.
2016) (citing EBC, Inc. v. Clark Bldg. Sys., Inc., 618
F.3d 253, 273 (3d Cir. 2010)). “Eligibility under 35
U.S.C. § 101 is a question of law, based on underlying
facts.” SAP Am., Inc. v. InvestPic, LLC, 898 F.3d 1161,
1166 (Fed. Cir. 2018).
Mallinckrodt’s appeal proceeds in three parts.
First, Mallinckrodt contends that the district court
erred by concluding that the asserted claims of the HF
patents are ineligible under § 101. Second, Mallinckrodt argues that the district court erroneously construed the term “verify” when analyzing whether
3

In a related appeal, this court recently held that claims 1–11
of the ’112 patent were obvious. Praxair, 890 F.3d 1024. We concluded that: “It is undisputed that discontinuing a treatment in response to a serious side effect was known in the prior art. It is also
undisputed that pulmonary edema is a potentially fatal condition.
And [the prior art] taught that administering ‘[nitric oxide] may
lead to pulmonary edema in patients with LVD.’” Id. at 1037 (alteration in original) (citations omitted) (holding claim 9 was obvious).

8a
Praxair’s proposed gas cylinder infringes the DSIR patents. Third, Mallinckrodt avers that the district court
improperly entered judgment on certain unasserted
claims. We address each argument in turn.
II
Section 101 provides that “[w]hoever invents or
discovers any new and useful process, machine, manufacture, or composition of matter, or any new and useful
improvement thereof, may obtain a patent therefor,
subject to the conditions and requirements of this title.”
35 U.S.C. § 101. However, § 101 “contains an important
implicit exception. ‘[L]aws of nature, natural phenomena, and abstract ideas’ are not patentable.” Mayo Collaborative Servs. v. Prometheus Labs., Inc., 566 U.S. 66,
70 (2012) (alteration in original) (quoting Diamond v.
Diehr, 450 U.S. 175, 185 (1981)).
To analyze whether a claim involves eligible subject matter, we apply a two-step test. First, we evaluate whether the claims are “directed to” a patentineligible concept, such as a natural phenomenon.
Athena Diagnostics, Inc. v. Mayo Collaborative Servs.,
LLC, 915 F.3d 743, 749 (Fed. Cir. 2019) (quoting Alice
Corp. v. CLS Bank Int’l, 573 U.S. 208, 217 (2014)). If
so, we ask whether the limitations of the claim, considered individually and as an ordered combination,
“‘transform the nature of the claim’ into a patenteligible application.” Id. (quoting Mayo, 566 U.S. at 78).
Applying this test, we agree with the district court
that claim 1 of the ’741 patent is ineligible. It is undisputed that treatment of infants experiencing hypoxic
respiratory failure with iNO gas has existed for decades. The inventors observed an adverse event that
iNO gas causes for certain patients. The patent claim
does no more than add an instruction to withhold iNO

9a
treatment from the identified patients; it does not recite giving any affirmative treatment for the iNOexcluded group, and so it covers a method in which, for
the iNO-excluded patients, the body’s natural processes
are simply allowed to take place. Consequently, the
claim here is directed to the natural phenomenon. The
claim, apart from the natural phenomenon itself, involves only well-understood, routine, and conventional
steps. For the reasons below, claim 1 of the ’741 patent
fails to recite eligible subject matter.4
A
We begin with the first step of the Mayo/Alice test.
A close review of representative claim 1 confirms that
the claim is “directed to” a natural phenomenon.
The natural phenomenon here is undisputed. A neonate patient’s body will react to iNO gas in a certain
way depending on whether or not the patient has a
congenital heart condition called LVD. Namely, if the
patient has LVD, iNO gas can induce a life-threatening
event known as pulmonary edema. As the district
court found, Praxair’s expert, Dr. Lawson, credibly testified that “the ‘standard observation’ that a dysfunctional ventricle, in combination with increased blood
flow, could cause a backup of venous blood, and, in turn,
edema,” is a phenomenon “taught to first year medical
students.” J.A. 22 (quoting Trial Tr. 1203:17–24). In
short, while nitric oxide lessens constriction, increases
blood flow, and can help normal patients with hypoxic
respiratory failure, it will harm a patient suffering from
LVD and may even result in death.
4

The district court treated claim 1 of the ’741 patent as representative of the HF patents. J.A. 21. The parties did not argue
the eligibility of the claims separately on appeal.

10a
Turning to the claim language, claim 1 is “directed
to” that observation about the natural phenomenon. As
drafted, the claim instructs a physician to administer
iNO gas to non-LVD patients as before, while now excluding the LVD patients. The exclusion step merely
restates the natural law. It expressly recites “excluding the second patient from treatment with inhaled nitric oxide, based on the determination that the second
patient has left ventricular dysfunction, so is at particular risk of increased PCWP leading to pulmonary edema upon treatment with inhaled nitric oxide.” ’741 patent col. 14 ll. 45–49.
On appeal, Mallinckrodt characterizes this as “selective administration.” Appellant’s Br. 3. In Mallinckrodt’s view, the “exclusion” step is the reason the
claims are not directed to a natural phenomenon as no
treatment protocol had screened for such an adverse
event before. Id. at 27. Ironically, it is this “new” instruction that directs the claims to the particular natural phenomenon here.
Properly understood, this added step is simply an
instruction not to act. In effect, the claim is directed to
detecting the presence of LVD in a patient and then doing nothing but leaving the natural processes taking
place in the body alone for the group of LVD patients.
Accordingly, the claim is directed to the natural phenomenon.
Indeed, Mallinckrodt cannot dispute that the patented method does not propose a new way of treating
LVD patients that leverages this discovery (e.g., by titrating the iNO dose). Instead, the claim simply requires that the patient not be treated with iNO. This is
significant because a claim not to treat—i.e., not to disturb these naturally-occurring physiological processes

11a
within the LVD patient’s body—risks monopolizing the
natural processes themselves.
Resisting this conclusion, Mallinckrodt argues that
its claims cover an eligible “method of treatment.” Appellant’s Br. 33. In Mallinckrodt’s view, the HF patent
claims cannot be directed to a natural phenomenon because they recite a treatment step. Specifically, claim 1
requires the affirmative act of “administering 20 ppm
inhaled nitric oxide treatment”—a well-known dosage—
to a patient without LVD. ’741 patent col. 14 ll. 43–44.
According to Mallinckrodt, claims drafted to include
treatment steps are automatically patent eligible because they involve an “act,” and Mayo requires nothing
more. We disagree.
Mallinckrodt oversimplifies the Mayo/Alice test and
our subsequent case law. The first step of the Supreme
Court’s test requires us to evaluate whether the claim is
“directed to” a natural phenomenon. This determination
involves a probing inquiry, which demands a careful
reading of the claim language in relation to the particular natural phenomenon in each case. Therefore, in “this
first step, we consider the claims ‘in their entirety to ascertain whether their character as a whole is directed to
excluded subject matter.’” ChargePoint, Inc. v. SemaConnect, Inc., 920 F.3d 759, 765 (Fed. Cir. 2019) (quoting
Internet Patents Corp. v. Active Network, Inc., 790 F.3d
1343, 1346 (Fed. Cir. 2015)); see also Athena, 915 F.3d at
750 (“The step one ‘directed to’ inquiry focuses on the
claim as a whole.”).
A closer look at the claim language as a whole confirms that the focus of the invention is not on a new
way of actually treating the underlying condition of hypoxic respiratory failure. Nor does it recite a way of
reducing the risk of pulmonary edema while providing

12a
some level of treatment to those patients. Rather, the
focus of the invention is screening for a particular adverse condition that, once identified, requires iNO
treatment be withheld. A treatment step of administering a prior art dosage is also present. But that step
is plainly not the focus of the claimed invention.
Mallinckrodt concedes this step is not innovative.
Mallinckrodt does not point to “any innovation other
than its [purported] discovery of the natural law.”
Athena, 915 F.3d at 752.
Mallinckrodt’s reliance on Vanda Pharmaceuticals
Inc. v. West-Ward Pharmaceuticals International Ltd.,
887 F.3d 1117 (Fed. Cir. 2018), is therefore misplaced.
In Vanda, the claims recited an actual improved treatment for schizophrenia. The inventors discovered a set
of natural relationships between iloperidone, a patient’s
CYP2D6 metabolism, and the relative risk of “QTc prolongation.” Id. at 1135. QT prolongation in patients can
lead to “serious cardiac problems.” Id. at 1121. After
the risk of QT prolongation was identified for certain
metabolizers, the claims did not simply instruct doctors
to stop treating those patients with iloperidone based
on that information. Instead, the claims leveraged the
natural phenomenon to improve treatment for schizophrenia. The claims required the doctor to treat a patient with a specific low-dose range if she had a “poor
metabolizer genotype” or a specific high-dose range if
she did not have the genotype. Id. at 1135. By leveraging the natural phenomenon, the specific dosing protocol treated all such patients while still “lowering the
risk of QTc prolongation.” Id. at 1136.
As a result, the majority concluded that the claims
in Vanda were not “directed to” a natural law under the
first step of the analysis. As a whole, the invented

13a
treatment recited a specific new way to provide a therapeutic benefit to patients suffering from schizophrenia:
The claims here are directed to a specific method of treatment for specific patients using a
specific compound at specific doses to achieve a
specific outcome They recite more than the
natural relationship between CYP2D6 metabolizer genotype and the risk of QTc prolongation. Instead, they recite a method of treating
patients based on this relationship that makes
iloperidone safer by lowering the risk of QTc
prolongation.
Id. (emphases added).
Here, the invention does not improve treatment of
the underlying conditions in question—pulmonary
edema and hypoxic respiratory failure—by taking advantage of the body’s natural processes. The inventors
observed a natural phenomenon about how the body
reacts to iNO gas that appears to be relevant to such
diseases: patients with LVD can be harmed while other
patients will not face such harm. But the claim language stops well short of an improved treatment method. Unlike Vanda, claim 1 does not recite a specific
method of treating the disease using an improved set of
specific doses in light of this discovery. Instead, the
broad directive to exclude all neonatal patients with
LVD from iNO treatment (while continuing to treat
other patients according to the established dose), collapses into a claim focused on the natural phenomenon.
Our recent decisions following Vanda bolster our
conclusion. See Nat. Alternatives Int’l, Inc. v. Creative
Compounds, LLC, 918 F.3d 1338 (Fed. Cir. 2019); Endo
Pharm. Inc. v. Teva Pharm. USA, Inc., 919 F.3d 1347
(Fed. Cir. 2019). In Natural Alternatives and Endo

14a
Pharmaceuticals, we explained why the specific method claims at issue recited treatments like those in Vanda that utilized the natural law in a patent-eligible
manner. In particular, we reasoned that the claims
were not “directed to” the natural law itself. Instead of
focusing on the information about the natural law, the
invention used the law to produce a change in the natural state of the patient to treat a condition.
In Natural Alternatives, the claims related to using
dietary supplements to increase an athlete’s anaerobic
working capacity. 918 F.3d at 1341. If certain quantities of beta-alanine are given to a human, “homeostasis
is overcome, and the subject’s body will produce greater levels of creatine,” which “in turn, results in specific
physiological benefits for athletes engaged in certain
intensive exercise.” Id. at 1344. “The claims not only
embody this discovery, they require ... actually administer[ing] the dosage form claimed in the manner
claimed, altering the athlete’s physiology to provide the
described benefits.” Id. (emphases added).
Thus, the focus of the invention in that case was a
“treatment.” The claim used a particular dose of a substance to obtain a specific “benefit” by “altering the
subject’s natural state.” Id. at 1345.
Likewise, in Endo Pharmaceuticals, we concluded
that the asserted claims were not “directed to” patentineligible subject matter but “a patent-eligible method
of using oxymorphone or a pharmaceutically acceptable
salt thereof to treat pain in a renally impaired patient.”
919 F.3d at 1353 (emphasis added). That conclusion
was supported by the specification. “The specification
predominantly describes the invention as a method that
treats renally impaired pain patients with less oxymorphone while still treating their pain. Indeed, the

15a
specification explains that the method ‘avoid[s] possible
issues in dosing’ and allows for treatment with ‘the
lowest available dose’ for patients with renal impairment.” Id. We reasoned:
In Vanda, the inventors recognized the relationship between iloperidone dosage and the
patient’s CYP2D6 poor metabolizer genotype,
but that was not what they claimed. Similarly,
the inventor here recognized the relationship
between oxymorphone and patients with renal
impairment, but that is not what he claimed.
Rather, he claimed an application of that relationship—specifically, a method of treatment
including specific steps to adjust or lower the
oxymorphone dose for patients with renal impairment.
Id. at 1354 (discussing Vanda, 887 F.3d at 1135).
Here, by contrast, the invention is not focused on
changing the physiological state of the patient to treat
the disease. The claimed invention is focused on
screening for a natural law. Information about an adverse event was observed by the inventors. The patent
instructs doctors to screen for that information. Once
the information is detected, no iNO treatment is given.
And as far as the claim specifies, the patient’s state
may remain unchanged and natural bodily processes
may proceed.
Therefore, the claims here are readily distinguishable from other cases that actually integrate or leverage natural laws to an eligible method of treatment for
a particular disease. The patent does not delve into the
complexities of dosing to more effectively “treat” different classes of patients as in Vanda, Natural Alternatives, and Endo Pharmaceuticals—by leveraging

16a
knowledge about a natural correlation to understand
what amounts of a particular drug prove therapeutic
for each patient.
Mallinckrodt’s attempt to liken this case to Rapid
Litigation Management Ltd. v. CellzDirect, Inc., 827
F.3d 1042 (Fed. Cir. 2016), is also unsuccessful. The
claims in CellzDirect are distinguishable for at least
two reasons. First, unlike the claims in CellzDirect, the
HF patents do not claim an improved laboratory method. Id. at 1048 (“Indeed, the claims recite a ‘method of
producing a desired preparation of multi-cryopreserved
hepatocytes.’”). Second, the pitfall in the district
court’s reasoning in CellzDirect is not present here.
There, the district court essentially stopped its analysis
after identifying a “natural law”—the cells’ “capability
of surviving multiple freeze-thaw cycles.” Id. We cautioned that the cells’ ability to “undergo the process
does not make the claim ‘directed to’ that natural ability.” Id. Rather, we examined how the claims used
that purported natural law and concluded the specific
steps used the law to improve the process for actually
“preserving” the “cells for later use.” Id.
Here, a careful reading of the claim language confirms no such corresponding improvement in “treating”
patients is achieved. Claim 1 does not recite a set of
dosages that offer some relief to LVD infants while
minimizing the risk of an adverse event. It simply sets
out an observation of the adverse event, and then instructs the physician to withhold iNO treatment.5
5

Mallinckrodt’s reliance on Prometheus Laboratories, Inc. v.
Roxane Laboratories, Inc., 805 F.3d 1092 (Fed. Cir. 2015), is unavailing. In Prometheus, we noted that “[s]ingling out a particular
subset of patients for treatment ... may reflect a new and useful
invention that is patent eligible despite the existence of prior art

17a
In short, after observing an adverse reaction, the
inventors could have developed a way to treat the diseases in question here based on their knowledge about
the body’s ability to undergo the phenomenon. The
claimed inventions in Vanda, Natural Alternatives, and
Endo Pharmaceuticals all did so. But the HF patent
claims do not. Instead, they remain “directed to” the
natural phenomenon itself.
Mallinckrodt’s remaining arguments carry little
force. First, Mallinckrodt takes issue with the district
court’s phraseology. Specifically, it points to a single sentence in the decision that suggests the first step of
Mayo/Alice is satisfied if the claims “touch upon” the natural law. J.A. 20. However, Mallinckrodt concedes that a
few sentences later, the district court recites and applies
the proper standard. J.A. 21 (“At step one of the Alice
two-step framework, the court asks whether the claims
are directed to patent ineligible subject matter ... .”).
Next, Mallinckrodt latches onto the Supreme
Court’s statement in Mayo that “a new way of using an
existing drug” remains patentable. Appellant’s Br. 40
(quoting Mayo, 566 U.S. at 87). But Mallinckrodt did not
develop a new use for an old drug that provides a therapeutic benefit. The claimed method here recites an old
use of an old drug. Then it proposes no use. Per the exclusion step, the identified patient population is simply
not treated with iNO at all. Mallinckrodt cites no authority for the proposition that such claims constitute an
eligible new “use” as contemplated by Mayo and its
progeny.
or a prior art patent disclosing the treatment method to patients
generally.” Id. at 1098. But Prometheus did not concern § 101. In
addition, Mallinckrodt’s claims do not resemble the method of
treatment postulated in Prometheus.

18a
Finally, Mallinckrodt contends that neither the Supreme Court nor this court has held that a “new protocol” is ineligible subject matter. Appellant’s Br. 35.
But a patent draftsman’s decision to pen a claim as a
“protocol” does not exempt those claims from being
scrutinized under the Supreme Court’s controlling twopart test. As with all patent claims, we must first determine whether the claimed method is “directed to” a
natural phenomenon. Having done so, we turn to the
second step of the analysis.
B
Mallinckrodt contends that the district court erred
at the second step of the Mayo/Alice test by concluding
that the additional limitations do not recite an “inventive concept” that transforms the claims. In response, Praxair argues that the additional limitations
amount to nothing more than routine and conventional
steps and a general instruction to apply the natural
phenomenon.
Under the second step, we examine the elements of
the claims, individually and as an ordered combination,
to determine whether they contain an “inventive concept” sufficient to “transform the claimed naturally occurring phenomena into a patent-eligible application.”
Cleveland Clinic Found. v. True Health Diagnostics
LLC, 859 F.3d 1352, 1361 (Fed. Cir. 2017) (citing Mayo,
566 U.S. at 71–72). “A claim that recites an abstract
idea, law of nature, or natural phenomenon must include ‘additional features’ to ensure ‘that the [claim] is
more than a drafting effort designed to monopolize the
[abstract idea, law of nature, or natural phenomenon].’”
Ariosa Diagnostics, Inc. v. Sequenom, Inc., 788 F.3d
1371, 1377 (Fed. Cir. 2015) (alterations in original)
(quoting Mayo, 566 U.S. at 77–78). “[S]imply append-

19a
ing conventional steps, specified at a high level of generality” to the claimed law does not make it patentable.
Mayo, 566 U.S. at 82.
Critically, the “inventive concept necessary at step
two of the Mayo/Alice analysis cannot be furnished by
the unpatentable law of nature (or natural phenomenon
or abstract idea) itself.” Genetic Techs. Ltd. v. Merial
L.L.C., 818 F.3d 1369, 1376 (Fed. Cir. 2016). “That is,
under the Mayo/Alice framework, a claim directed to a
newly discovered law of nature (or natural phenomenon
or abstract idea) cannot rely on the novelty of that discovery for the inventive concept necessary for patent
eligibility; instead, the application must provide something inventive, beyond mere ‘well-understood, routine,
conventional activity.’” Id. (quoting Mayo, 566 U.S. at
73).
Mallinckrodt does not meaningfully dispute the district court’s findings that the various steps of claim 1 of
the ’741 patent are routine and conventional. Here,
“the steps in the claimed processes (apart from the natural laws themselves) involve well-understood, routine,
conventional activity previously engaged in by researchers in the field.” Mayo, 566 U.S. at 73.
First, the claim recites the step of “identifying”
candidates for treatment with 20 ppm iNO. As the district court found, “[t]he specification ... makes it clear
that identifying patients who have hypoxic respiratory
failure and are candidates for 20 ppm of iNO treatment
is routine and conventional in the art.” J.A. 24 (discussing ’741 patent col. 1 ll. 20–24, 49–50).
We then turn to the two “determining” steps. The
claim instructs a doctor to determine that a first patient
“does not have left ventricular dysfunction” and determine that a second patient “has left ventricular dys-

20a
function, [putting that patient] at particular risk of ...
pulmonary edema upon treatment with inhaled nitric
oxide.” ’741 patent col. 14 ll. 39–42. Mallinckrodt concedes it did not invent a new way of detecting LVD.
Indeed, as the district court concluded, “the specification explicitly states that ‘[i]dentifying patients with
pre-existing LVD is known to those skilled in the medicinal arts, and such techniques for example may include assessment of clinical signs and symptoms of
heart failure, or echocardiography diagnostic screening.’” J.A. 24–25 (quoting ’741 patent col. 5 ll. 15–19).
The next step—“administering” a dosage of 20 ppm
of iNO gas—is well-known. See J.A. 25 (quoting ’741
patent col. 14 ll. 43–44). Mallinckrodt does not challenge the district court’s finding on this point.
Finally, the last step of claim 1 directs physicians to
“exclud[e]” a patient with LVD from iNO treatment
because of the determination that he is at an increased
risk of pulmonary edema when treated with iNO. ’741
patent col. 14 ll. 45–49. As discussed above at length,
this “do not treat” step essentially embodies the natural phenomenon at issue in this case—the insight that
nitric oxide will adversely affect a neonate with LVD.
“To transform an unpatentable law of nature into a patent-eligible application of such a law, one must do
more than simply state the law of nature while adding
the words ‘apply it.’” Mayo, 566 U.S. at 72. This would
be quite a different case if the inventors had invented a
new way of titrating the dose. But this claim, unaccompanied by a recitation of some affirmative treatment, is directed to the natural law.
In essence, claim 1 boils down to an instruction to
doctors: when treating neonatal patients with iNO gas,
take into account their natural reaction to iNO gas. Do

21a
not give iNO gas to patients with LVD; otherwise, proceed with treatment. Any other steps are either necessary to manifest the natural law or are undisputedly
routine and conventional.
As in Mayo, such an instruction, even when viewed
as an ordered combination with other active steps, does
not transform the claims. In Mayo, the Court reasoned
that “[a]nyone who wants to make use of these laws
must first administer a thiopurine drug and measure
the resulting metabolite concentrations, and so the
combination amounts to nothing significantly more than
an instruction to doctors to apply the applicable laws
when treating their patients.” Mayo, 566 U.S. at 79.
The same is true with the natural phenomenon here
that iNO gas causes an adverse reaction in LVD patients. Anyone who wants to use the natural phenomenon must first identify “candidates for inhaled nitric
oxide gas treatment” and determine whether a given
patient has the LVD heart condition. In turn, the
claimed combination of treating patients without LVD
with an existing dosage while excluding patients with
LVD from iNO treatment amounts to little more than
an instruction to doctors to “apply” the applicable law
when treating their patients.
Therefore, whether viewed individually or as an
ordered combination, the claims here do not recite a patent-eligible application under the second step of
Mayo/Alice.
Even if a newly discovered natural law could somehow render the claims patent eligible at step two of
Mayo/Alice, that is not the situation here. Although
the inventors claimed to have discovered that administration of iNO to neonates with LVD “may be detrimental,” the specification suggests otherwise. ’741 pa-

22a
tent col. 9 l. 51. The specification explicitly notes that
the incidence of pulmonary edema among patients in
the INOT22 study was “of interest because pulmonary
edema [was] previously reported with the use of iNO in
patients with LVD, and may be related to ... overfilling
of the left atrium.” Id. at col. 13 ll. 26–29. The district
court found the instruction to “exclude” patients potentially experiencing an adverse event was conventional.
The court’s finding was based in part on admissions
from one of the named inventors. J.A. 26 n.5 (citing
Trial Tr. 641:25–642:4); see also J.A. 26 (“Plaintiffs cannot seriously contend that it is a new practice to exclude certain patients from treatment with a drug when
those patients are at an increased risk of experiencing
negative side effects from the drug.”).
Mallinckrodt argues there were benefits to not
treating LVD patients with iNO.
According to
Mallinckrodt, its amended protocol resulted in “a 90%
reduction in severe adverse events.” Appellant’s Br. 9.
Relatedly, Mallinckrodt argues its alleged discovery
“upend[ed]” the prior standard of care as no FDA counterindication existed for patients with pre-existing
LVD. Appellant’s Reply Br. 20. But these arguments
fail. These benefits result solely from the alleged discovery of the phenomenon itself—not an inventive application of it, and the patent applicant here did not in
fact discover the natural phenomenon.
Mallinckrodt’s argument that its claims do not
broadly preempt treatment of neonates with LVD is a
red herring. Appellant’s Br. 48. As it stands, Mallinckrodt has observed that use of iNO gas with LVD patients suffering from hypoxic respiratory failure leads
to adverse events. It has claimed not treating those
patients with the gas. At least as a practical matter, as
far as the record shows, this claim is broadly preemp-

23a
tive of uses of the natural phenomenon. Regardless,
Mallinckrodt’s attempt to argue that a lack of total
preemption confers eligibility misses the mark.
“Preemption is sufficient to render a claim ineligible
under § 101, but it is not necessary.” Athena, 915 F.3d
at 752 (emphasis added).
Inviting us to ignore the governing inquiry under
Mayo/Alice, Mallinckrodt makes several policy arguments. Principally, Mallinckrodt argues that the district court’s decision hampers the emerging field of
personalized medicine.
Appellant’s Br. 50–51.
Mallinckrodt’s position is unpersuasive. While § 101
precludes bare monopolies on natural phenomena, new
and inventive methods of treatment in personalized
medicine remain patent eligible.6 We conclude that the
specific claims here are ineligible. But we emphasize
the narrowness of our holding today, which is limited to
the particular claims at issue and is driven by the particular circumstances here.
For the reasons above, we affirm the district
court’s decision that claim 1 of the ’741 patent is ineligible under § 101, as are asserted claims 4, 7, 9, and 18 of
the ’741 patent, claim 20 of the ’966 patent, claim 18 of
the ’284 patent, claims 9, 11, 13, and 15 of the ’163 patent, and claims 1, 7, and 9 of the ’112 patent.
III
Turning to the DSIR patents, Mallinckrodt takes
issue with the district court’s interpretation of the
6

To be certain, we do not hold that every treatment that contemplates adverse events—whether known or newly discovered—
will lack claim elements that prove transformative. But, here, proceeding with the prior art treatment for hypoxic respiratory failure while offering no solution for neonatal patients with LVD does
not transform these particular claims.

24a
“verify” term. Claim 1 of the ’794 patent requires the
device “verify one or more of the gas identification, the
gas concentration and that the gas is not expired.” ’794
patent col. 17 ll. 30–32.
The term “verify” was never formally construed by
the district court. Thus, the district court applied the
term’s plain and ordinary meaning. It found that the
system does not “verify” the gas data when one simply
takes a meter from Mallinckrodt’s gas cylinder (containing data about the gas from the manufacturer) and
uses it with a Praxair gas cylinder (which does not contain a meter with gas data). See J.A. 36–39. The district court interpreted the claim term to require that
the gas delivery system verify data about the actual
gas in the “gas source” (i.e., the cylinder being used).
J.A. 37–38. In Mallinckrodt’s view, the DSIR patent
claims are practiced when any iNO cylinder is combined with a circuit storing gas data—even if the data
is unrelated to the particular gas in the cylinder.
Mallinckrodt’s attempt to undo its loss on infringement
by redrawing the metes and bounds of the claim is unavailing.
The plain language of the representative claim confirms the district court’s determination was correct.
Claim 1 of the ’794 patent recites a “gas delivery device” with “a gas source” to provide iNO “therapy gas.”
’794 patent col. 17 ll. 15–16. “A valve” is used to control
the gas via a “control module.” Id. at col. 17 ll. 17–20.
Finally, there is a “circuit,” which includes “a memory”
to store “gas data” about “gas identification, gas expiration date and gas concentration.” Id. at col. 17 ll. 23–
26. A “processor and a transceiver” send gas data between the circuit’s memory and the control module on
the valve to “verify one or more of the gas identification, the gas concentration and that the gas is not ex-

25a
pired.” Id. at col. 17 ll. 27–32 (emphases added). The
“gas” throughout the claim consistently refers to the
specific contents of the “gas source” administered to
the patient. Thus, “gas data” relates to the actual gas
inside the cylinder.
This conclusion is further confirmed by the specification. The fundamental purpose of the invention is to
improve patient safety by reducing error during the
administration of iNO gas. As the specification states,
“[t]here is a need for a gas delivery device that integrates a computerized system to ensure that patient
information contained within the computerized system
matches the gas that is delivered by the gas delivery
device.” Id. at col. 1 ll. 40–43.
Accordingly, the district court’s interpretation of
the plain language of the claims was correct. Mallinckrodt does not dispute that under the district court’s interpretation of the plain meaning of the claims, Praxair’s cylinder does not infringe.
Relatedly, the district court found that because
Praxair’s delivery system (NOxBOXi) does not “verify”
the gas either, it does not infringe claim 15 of the ’794
patent, which is representative of the DSIR patents’
method claims. We agree. Mallinckrodt’s expert, Dr.
Schaafsma, testified that the NOxBOXi’s gas data does
not come from the gas source. J.A. 40–41 (discussing
J.A. 1449, 1451). Instead, Dr. Schaafsma testified that
“verification” could occur when certain data from one
circuit board—the MediBoard—is compared to data on
another circuit—the Single Board Computer (“SBC”).
Id. But as the district court found, the MediBoard’s data is populated with the value held by the SBC. Id.
Therefore, under Mallinckrodt’s reading, the data is
“verified” by comparing the value to itself. The district

26a
court correctly found it difficult “to understand how
comparing a value to itself could satisfy the claim
phrase ‘verify the gas data.’” Id. In light of the intrinsic evidence above, Mallinckrodt’s position is unsupported. Therefore, we affirm the district court’s determination of noninfringement for asserted claims 1
and 15 of the ’794 patent, claim 6 of the ’209 patent,
claims 1 and 15 of the ’795 patent, claims 1 and 10 of the
’911 patent, and claims 1 and 10 of the ’802 patent.
IV
Finally, Mallinckrodt challenges a technical error in
the district court’s final judgment order. Specifically,
the district court did not limit its ruling to the asserted
claims before it. Instead, the court erroneously made a
blanket ruling that each Mallinckrodt patent in its entirety was invalid or not infringed. J.A. 47. In Praxair’s view, the judgment was justified. But Praxair offers no authority for expanding a judgment in this
manner to unasserted claims under the present circumstances. Therefore, we remand to allow the district
court to correct this clerical error.
CONCLUSION
For the reasons above, we affirm the district
court’s conclusion regarding § 101 and noninfringement
as to the claims at issue, but vacate and remand for the
limited purpose of correcting the judgment as to unasserted claims.
AFFIRMED-IN-PART, VACATED-IN-PART, AND
REMANDED
COSTS
The parties shall bear their own costs.

27a
NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1019
INO THERAPEUTICS LLC, MALLINCKRODT
HOSPITAL PRODUCTS INC., MALLINCKRODT
HOSPITAL PRODUCTS IP LTD.,
Plaintiffs-Appellants,
v.
PRAXAIR DISTRIBUTION INC., PRAXAIR INC.,
Defendants-Appellees.
Appeal from the United States District Court for the
District of Delaware in No. 1:15-cv-00170-GMS,
Judge Gregory M. Sleet.
NEWMAN, Circuit Judge, concurring-in-part, dissenting-in-part.
I concur in correction of the technical error, where
the district court included in its decision some claims
that were not there at issue. However, I respectfully
dissent from the majority’s rulings that the claims at
issue are ineligible for patenting under Section 101.
The claims are for a method of medical treatment—a
class of subject matter whose eligibility under section
101 is established by precedent.
The claimed inventions are for a method of treatment of hypoxic respiratory failure in neonates, and an
apparatus for administering dosages of gaseous nitric
oxide for this purpose. INO and Mallinckrodt scientists

28a
discovered the relationship of inhaled nitric oxide to
pulmonary edema in certain infants, and also discovered why certain infants experience adverse effects.
These scientists then developed a method and apparatus of treatment, avoiding adverse events.
The method that is described and claimed does not
exist in nature; it was designed by and is administered
by humans. However, the majority holds that this
method is ineligible for patenting because the claims
are directed to a “natural phenomenon.” Maj. Op. at 8–
9 (“The inventors observed an adverse event that iNO
gas causes for certain patients. The patent claim does
no more than add an instruction to withhold iNO
treatment from the identified patients ... so it covers a
method in which, for the iNOexcluded patients, the
body’s natural processes are simply allowed to take
place.”). The majority does not acknowledge that the
claimed multi-step method of treatment of hypoxic respiratory failure does not occur in nature. The majority
improperly separates the claims into old and new steps,
describes some claim steps as a “natural phenomenon”
and some steps as “well-understood, routine, and conventional steps,” and avoids the requirement that a
claimed invention is considered as a whole.
Mallinckrodt states that: “It would be remarkable
and unprecedented to conclude that a new treatment
protocol that is capable of reducing the incidence of severe adverse events by as much as 90% is not inventive.” Appellants Br. 46. The majority’s holding
contravenes the section 101 guidance of the Supreme
Court, and directly contradicts this court’s precedent
applying section 101 to methods of medical treatment.
The Court in Mayo Collaborative Services v. Prometheus Laboratories, Inc., 566 U.S. 66 (2012), cautioned
against misapplication of its holding, reaffirming that a

29a
“new way of using an existing drug” is eligible for patenting under section 101. Id. at 87. My colleagues
nonetheless hold that since the effect of nitric oxide is
“human physiology,” Maj. Op. at 4, and since physiologic response is a natural phenomenon, this method of
treatment is ineligible for patenting. Id. at 8–9.
Heretofore, Federal Circuit precedent has been
reasonably consistent in holding that methods of medical treatment are eligible for patenting. See Athena
Diagnostics, Inc. v. Mayo Collaborative Servs., LLC,
927 F.3d 1333, 1367–68 (Fed. Cir. 2019) (Newman, J.,
dissenting from denial of rehearing en banc) (collecting
cases on eligible methods of treatment and ineligible
methods of diagnosis). The subject matter herein routinely complies with section 101; the court mis-steps in
holding that “[t]he natural phenomenon here is undisputed,” whereby the method of treatment is also
deemed to be a natural phenomenon. Maj. Op. at 9.
Mallinckrodt’s method of treatment may or may
not pass the tests of sections 102 or 103,1 but this
court’s precedent and that of the Supreme Court do not
exclude methods of treatment from access to the patent
system under section 101. Today’s change of law adds
to the inconsistency and unpredictability of this area of
patent-supported innovation.

The INOT22 Study led to the claimed method
Treatment of neonates with gaseous nitric oxide
was approved by the FDA in 1999 for “the treatment of
1

In a separate proceeding, the Patent Trial and Appeal Board
in Inter Partes Review held invalid the claims of one of the patents
here in suit, on the ground of obviousness in view of prior art, section 103. The Federal Circuit affirmed. Praxair Distribution, Inc.
v. Mallinckrodt Hosp. Prods. IP Ltd., 890 F.3d 1024 (Fed. Cir.
2018).

30a
term and near-term ... neonates having hypoxic respiratory failure associated with clinical or echocardiographic evidence of pulmonary hypertension.” ’741 patent, col. 1, ll. 20–24. The patent explains that the
treatment was contraindicated for neonates who were
known as dependent on right-to-left shunting of blood.
Id., col. 3, ll. 53–56.
In 2004 Mallinckrodt sponsored a clinical study
known as INOT22, seeking to understand the occasional severe adverse effects of nitric oxide, including pulmonary edema and death. Id., col. 12, ll. 49–58. The
study led to understanding the relation among left ventricular dysfunction, pulmonary capillary wedge pressure, and the adverse events. Id., col. 12, ll. 55–61.
Mallinckrodt then designed a treatment protocol for
neonates that reduced the adverse events. In 2009 the
FDA approved this protocol, which is the basis of the
patents in suit, and Praxair’s ANDA and this HatchWaxman litigation.
Claim 1 of the ’741 patent is deemed representative
of the method-of-treatment claims.
1. A method of treating patients who are
candidates for inhaled nitric oxide treatment,
which method reduces the risk that inhalation
of nitric oxide gas will induce an increase in
pulmonary capillary wedge pressure (PCWP)
leading to pulmonary edema in neonatal patients with hypoxic respiratory failure, the
method comprising:
(a) identifying a plurality of term or nearterm neonatal patients who have hypoxic respiratory failure and are candidates for 20 ppm
inhaled nitric oxide treatment;

31a
(b) determining that a first patient of the
plurality does not have left ventricular dysfunction;
(c) determining that a second patient of the
plurality has left ventricular dysfunction, so is
at particular risk of increased PCWP leading to
pulmonary edema upon treatment with inhaled
nitric oxide;
(d) administering 20 ppm inhaled nitric oxide treatment to the first patient; and
(e) excluding the second patient from
treatment with inhaled nitric oxide, based on
the determination that the second patient has
left ventricular dysfunction, so is at particular
risk of increased PCWP leading to pulmonary
edema upon treatment with inhaled nitric oxide.
The claims recite a multi-step method of administering
inhaled nitric oxide so that patients with left ventricular dysfunction are at reduced risk of adverse events.
This method is not a law of nature, it is not a natural
phenomenon.
The majority’s argument that a method of treatment of an affliction affecting human physiology is ineligible under section 101 contravenes precedent. See,
e.g., Rapid Litig. Mgmt. Ltd. v. CellzDirect, Inc., 827
F.3d 1042, 1048–49 (Fed. Cir. 2016) (method of treating
disease “to achieve ‘a new and useful end,’ is precisely
the type of claim that is eligible for patenting” (quoting
Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 573 U.S. 208,
217 (2014))). My colleagues acknowledge that the
claims include “[a] treatment step of administering,”
Maj. Op. at 11, but state that this step is “not the focus

32a
of the claimed invention,” id., and that “[t]he claimed
invention is focused on screening for a natural law,” id.
at 14–15. However, patent eligibility is determined not
for isolated steps, but for the claimed invention as a
whole. Eligibility does not depend on whether some of
the claim steps were known. The Court reiterated in
Diamond v. Diehr, 450 U.S. 175 (1981):
In determining the eligibility of respondents’
claimed process for patent protection under
§ 101, their claims must be considered as a
whole. It is inappropriate to dissect the claims
into old and new elements and then to ignore
the presence of the old elements in the analysis.
Id. at 188; see Parker v. Flook, 437 U.S. 584, 594 (1978)
(“[A] patent claim must be considered as a whole.”);
Aro Mfg. Co. v. Convertible Top Replacement Co., 365
U.S. 336, 344 (1961) (“[I]f anything is settled in the patent law, it is that the combination patent covers only
the totality of the elements in the claim and that no element, separately viewed, is within the grant.”). The
majority’s analysis is an explicit departure from this
rule.

The majority’s ruling conflicts with extensive
precedent
Heretofore, this court has appropriately viewed
section 101 eligibility for method-of-treatment inventions. See, e.g., Vanda Pharm. Inc. v. West-Ward
Pharm. Int’l Ltd., 887 F.3d 1117 (Fed. Cir. 2018) (method of treatment of schizophrenia with the drug iloperidone where the dose is adjusted based on whether the
patient is a CYP2D6 poor metabolizer); Nat. Alternatives Int’l, Inc. v. Creative Compounds, LLC, 918 F.3d
1338 (Fed. Cir. 2019) (method of increasing athletic performance by administering betaalanine); Endo Pharm.

33a
Inc. v. Teva Pharm. USA, Inc., 919 F.3d 1347 (Fed. Cir.
2019) (method of treating patients with oxymorphone
based on the discovery that patients with impaired kidney function need less oxymorphone for pain relief).
Despite precedent, the majority today holds that this
method-of-treatment is not patent-eligible under section 101.
Section 101 states the eligibility for patenting of
“any new and useful process, machine, manufacture, or
composition of matter, or any new and useful improvement thereof,” while “subject to the conditions and requirements of this title.” The purpose of section 101 is
to introduce the statute and define the scope of its subject matter, as distinguished from the subject matter of
copyright, also authorized in Article I, Section 8, Clause
8 of the Constitution. In turn, eligible subject matter is
reviewed for compliance with the conditions of patentability in sections 102, 103, 112, and the rest of Title 35.
The majority attempts to meet these concerns by
stating “we emphasize the narrowness of our holding
today, which is limited to the particular claims at issue
and is driven by the particular circumstances here.”
Maj. Op. at 22. This disclaimer appears at the end of a
lengthy exposition, whose wide-ranging pronouncements of law and policy are not tied to narrow circumstances or claims. The persistent theme of the majority’s analysis is that if a claim contains limitations that
concern human physiology, ineligibility arises under
section 101, whether or not the claimed method of medical treatment meets the requirement of patentability.
The majority’s broad pronouncement of ineligibility
of medical treatment that relates to human physiology
not only contravenes precedent, but contravenes the

34a
national interest in achieving new methods of medical
treatment with the assistance of the patent incentive.

The policy of patent-supported innovation
My colleagues state that the new method presented
by INO and Mallinckrodt is ineligible under section 101
because it is “broadly preemptive of uses of the natural
phenomenon,” Maj. Op. at 21, and “risks monopolizing”
information. Id. at 10. We are not told how this method preempts any known or unknown uses of this “natural phenomenon” or forecloses use of scientific information.
The patents at issue arose from discovery of the relation among left ventricular dysfunction, gaseous nitric
oxide, and pulmonary edema—a discovery disclosed in
the patent for all to understand and study and evaluate
and test and improve upon. The Court has reiterated,
“the federal patent system thus embodies a carefully
crafted bargain for encouraging the creation and disclosure of new, useful, and nonobvious advances in technology and design in return for the exclusive right to
practice the invention for a period of years.” Bonito
Boats, Inc. v. Thunder Craft Boats, Inc., 489 U.S. 141,
150–51 (1989). See J.E.M. Ag Supply, Inc. v. Pioneer
Hi–Bred Int’l, Inc., 534 U.S. 124, 142 (2001) (“The disclosure required by the Patent Act is ‘the quid pro quo
of the right to exclude.’” (quoting Kewanee Oil Co. v.
Bicron Corp., 416 U.S. 470, 484 (1974))).
My colleagues’ position that patents impede scientific and technologic advance ignores the principle, first
stated in Whittemore v. Cutter, 29 F. Cas. 1120, 1121
(C.C.D. Mass. 1813), that: “It could never have been
the intention of the legislature to punish a man, who
constructed such a machine merely for philosophical
experiments, or for the purpose of ascertaining the suf-

35a
ficiency of the machine to produce its described effects.” This common-law research exemption was remarked in Integra Lifesciences I, Ltd. v. Merck KGaA,
331 F.3d 860, 875 (Fed. Cir. 2003) (Newman, J., dissenting) (“Today’s accelerated technological advance is
based in large part on knowledge of the details of patented inventions and how they are made and used.
Prohibition of research into such knowledge cannot be
squared with the framework of the patent law.”). See
also Giles S. Rich, Principles of Patentability, 28 Geo.
Wash. L. Rev. 393, 400 (1960) (“It should never be forgotten that patented inventions are published and become a part of the technical literature. This publication
itself promotes progress in the useful arts and it is the
prospect of patent rights which induces disclosure and
the issuance of the patent which makes it available.”)
(emphasis original).
Patents provide the economic incentive for medical
scientists and industries to devise new treatments to
serve the afflicted public. My colleagues’ holding that
such inventions are broadly ineligible for patenting, will
simply add disincentive to medical advance. From my
colleagues’ holding that this improved method of
treatment of neonates having left ventricular dysfunction is ineligible under section 101, I respectfully dissent.

37a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
Civil Action No. 15-170-GMS
MALLINCKRODT HOSPITAL PRODUCTS IP LTD.,
INO THERAPEUTICS LLC AND
IKARIA, INC.
Plaintiffs,
v.
PRAXAIR DISTRIBUTION, INC. AND PRAXAIR, INC.,
Defendants.
Filed September 5, 2017
MEMORANDUM

I.

INTRODUCTION

In this patent infringement action, Mallinckrodt
Hospital Products IP Ltd., INO Therapeutics LLC, and
Ikaria, Inc. (collectively, “Plaintiffs” or “Ikaria”) allege
that Praxair Distribution, Inc. and Praxair, Inc. (collectively, “Defendants” or “Praxair”) infringe the asserted
claims of the patents-in-suit. (D.I. 1). The court held a
seven-day bench trial in this matter, beginning on
March 13, 2017. Presently before the court are the parties’ post-trial proposed findings of fact and conclusions
of law concerning the validity and infringement of the
patents-in-suit. (D.I. 80; D.I. 81.) Specifically, Defendants allege that U.S. Patent Nos. 8,282,966, 8,293,284,

38a
8,795,741, 8,431,163, and 8,846112 (collectively, the “HF
patents”) are invalid under 35 U.S.C. § 101; Defendants
argue that they do no infringe U.S. Patent Nos.
8,573,209, 8,776,794, 8,776,795, 9,265,911, and 9,295,802
(collectively, the “DSIR patents”); and they contend
that they do not infringe U.S. Patent No. 9.279,794 (the
“Sensor Drift Patent”).
Pursuant to Federal Rule of Civil Procedure 52(a),
having considered the entire record in this case and the
applicable law, the court concludes that the HF patents
are invalid under § 101, and that Defendants do not infringe the DSIR or the Sensor Drift patents. These
findings of fact and conclusions of law are set forth in
further detail below.
FINDINGS OF FACT1

II.

A.

The Parties

1.
Plaintiff Mallinckrodt Hospital Products IP Ltd.
(“Mallinckrodt”) is a private unlimited company having
a share capital and formed under the laws of Ireland
with company number 5683516 and having its registered office at Damastown Industrial Estate, Mulhuddart, Dublin 15. In September 2015, Mallinckrodt IP
1

Prior to trial, the parties submitted an exhibit of uncontested facts in conjunction with their Pretrial Order. (D.I. 257, Ex. I.)
The court takes most of its findings of fact from the parties’ uncontested facts. The court has also reordered and renumbered some
paragraphs and made minor edits for the purpose of concision and
clarity that it does not believe alters the meaning of the paragraphs from the Pretrial Order. Otherwise, any differences between this section and the parties’ statement of uncontested facts
are unintentional. The court’s findings of fact with respect to matters that were the subject of dispute between the parties are included in Part III this opinion (“Discussion and Conclusions of
Law”), preceded by the phrase “the court finds” or “the court concludes.”

39a
acquired rights in certain regulatory and intellectual
property rights related to INOmax.
2.
Plaintiff INO Therapeutics, LLC (“INOT”) is a
wholly-owned subsidiary of Mallinckrodt Hospital
Products Inc. and is a limited liability company organized and existing under the laws of the State of Delaware, having its principal place of business at Perryville III Corporate Park, P.O. Box 9001, 53 Frontage
Road, Third Floor, Hampton, New Jersey 08827-9001.
3.
Plaintiff Ikaria, Inc. (“Ikaria”) is a corporation
organized and existing under the laws of the State of
Delaware, having its principal place of business at Perryville III Corporate Park, P.O. Box 9001, 53 Frontage
Road, Third Floor, Hampton, New Jersey 08827-9001.
Ikaria no longer exists as a formal legal entity, and has
merged into Mallinckrodt Hospital Products, Inc.
4.
Defendant Praxair, Inc. is a corporation organized and existing under the laws of the State of Delaware, having its principal place of business at 10 Riverview Drive, Danbury, Connecticut 06810.
5.
Defendant Praxair Distribution, Inc. is a whollyowned subsidiary of Praxair, Inc., and it is a corporation organized and existing under the laws of the State
of Delaware, with its head office at 28 McCandless
Ave., Pittsburgh, Pennsylvania 15201.
6.
U.S. Patent No. 8,282,966 (“the ’966 patent”), entitled “Methods of Reducing the Risk of Occurrence of
Pulmonary Edema in Children in Need of Treatment
with Inhaled Nitric Oxide,” issued on October 9, 2012,
and names James S. Baldassarre and Ralf Rosskamp as
the inventors.
7.
The ’966 patent is listed in the FDA’s Approved
Drug Products with Therapeutic Equivalence Evalua-

40a
tions (the “Orange Book”) for INOmax® (NDA No.
N020845).
8.
Form 3542 for the ’966 patent lists “A method of
reducing the risk of pulmonary edema in patients in
need of treatment with inhaled nitric oxide” as the use
code for claims 1-29.
9.

The ’966 patent is owned by Mallinckrodt IP.

10.

The ’966 patent was filed on June 22, 2010.

11.
The ’966 patent claims priority to U.S. Patent
Application No. 12/494,598, filed on June 30, 2009.
12.
U.S. Patent No. 8,293,284 (“the ’284 patent”), entitled “Methods of Reducing the Risk of Occurrence of
Pulmonary Edema in Term or Near-Term Neonates in
Need of Treatment with Inhaled Nitric Oxide,” issued
on October 23, 2012, and names James S. Baldassarre
and Ralf Rosskamp as the inventors.
13.
The ’284 patent is listed in the Orange Book for
INOmax® (NDA No. N020845).
14.
Form 3542 for the ’284 patent lists “A method of
reducing the risk of pulmonary edema in patients in
need of treatment with inhaled nitric oxide” as the use
code for claims 1-30.
15.

The ’284 patent is owned by Mallinckrodt IP.

16.

The ’284 patent was filed on June 22, 2010.

17.
The ’284 patent claims priority to U.S. Patent
Application No. 12/494,598, filed on June 30, 2009.
18.
U.S. Patent No. 8,431,163 (“the ’163 patent”), entitled “Methods of Reducing the Risk of Occurrence of
Pulmonary Edema Associated with the Inhalation of
Nitric Oxide Gas,” issued on April 30, 2013, and names

41a
James S. Baldassarre and Ralf Rosskamp as the inventors.
19.
The ’163 patent is listed in the Orange Book for
INOmax® (NDA No. N020845).
20.
Form 3542 for the ’163 patent lists “A method of
reducing the risk of pulmonary edema in patients in
need of treatment with inhaled nitric oxide” as the use
code for claims 1-25.
21.

The ’163 patent is owned by Mallinckrodt IP.

22.

The ’163 patent was filed on October 15, 2012.

23.
The ’163 patent claims priority to U.S. Patent
Application No. 12/821,041, filed on June 22, 2010, which
claims priority to U.S. Patent Application No.
12/494,598, filed on June 30, 2009.
24.
U.S. Patent No. 8,795,741 (“the ’741 patent”), entitled “Methods For Treating Patients Who Are Candidates For Inhaled Nitric Oxide Treatment,” issued on
August 5, 2014, and names James S. Baldassarre as the
inventor.
25.
The ’741 patent is listed in the Orange Book for
INOmax® (NDA No. N020845).
26.
Form 3542 for the ’741 patent lists “A method of
reducing the risk of pulmonary edema in patients in
need of treatment with inhaled nitric oxide” as the use
code for claims 1-44.
27.

The ’741 patent is owned by Mallinckrodt IP.

28.

The ’741 patent was filed on November 21, 2012.

29.
The ’741 patent claims priority to U.S. Patent
Application No. 13/651,660, filed on October 15, 2012,
which claims priority to U.S. Patent Application No.
12/820,866, filed on June 22, 2010, which claims priority

42a
to U.S. Patent Application No. 12/821,041, filed on June
22, 2010, which claims priority to U.S. Patent Application No. 12/494,598, filed on June 30, 2009.
30.
U.S. Patent No. 8,846,112 (“the ’112 patent”), entitled “Methods of Distributing A Pharmaceutical
Product Comprising Nitric Oxide Gas For Inhalation”
issued on September 30, 2014, and names James S. Baldassarre as the inventor.
31.
The ’112 patent is listed in the Orange Book for
INOmax® (NDA No. N020845).
32.
Form 3542 for the ’112 patent lists “A method of
reducing the risk of pulmonary edema in patients in
need of treatment with inhaled nitric oxide” as the use
code for claims 1-19.
33.

The ’112 patent is owned by Mallinckrodt IP.

34.

The ’112 patent was filed on November 21, 2012.

35.
The ’112 patent claims priority to U.S. Patent
Application No. 13/651,660, filed on October 15, 2012,
which claims priority to U.S. Patent Application No.
12/820,866, filed on June 22, 2010, which claims priority
to U.S. Patent Application No. 12/821,041, filed on June
22, 2010, which claims priority to U.S. Patent Application No. 12/494,598, filed on June 30, 2009.
36.
U.S. Patent No. 8,291,904 (“the ’904 patent”), entitled “Gas Delivery Device and System” issued on October 23, 2012, and names Duncan P. Bathe, John
Klaus, and David Christensen as the inventors.
37.
The ’904 patent is listed in the Orange Book for
INOmax® (NDA No. N020845).
38.
Form 3542 for the ’904 patent lists “A method of
providing a predetermined concentration of nitric oxide
to a patient” as the use code for claims 11-15.

43a
39.

The ’904 patent is owned by Mallinckrodt IP.

40.

The ’904 patent was filed on June 11, 2012.

41.
The ’904 patent claims priority to U.S. Patent
Application No. 13/509,873, filed on June 11, 2012, which
is the National Stage Entry of PCT/US11/20319, filed
January 6, 2011.
42.
U.S. Patent No. 8,573,210 (“the ’210 patent”), entitled “Nitric Oxide Delivery Device” issued on November 5, 2013 and lists Duncan P. Bathe, John Klaus,
and David Christensen as the inventors.
43.
The ’210 patent is listed in the Orange Book for
INOmax® (NDA No. N020845).
44.
Form 3542 for the ’210 patent lists “A method of
treating hypoxic respiratory failure by verifying gas
information of nitric oxide prior to delivery to patient”
as the use code for claims 12-16.
45.

The ’210 patent is owned by Mallinckrodt IP.

46.

The ’210 patent was filed on November 15, 2012.

47.
The ’210 patent claims priority from U.S. Patent
Application No. 13/509,873, filed June 11, 2012, which is
the National Stage Entry of PCT/US11/20319, filed
January 6, 2011.
48.
U.S. Patent No. 8,573,209 (“the ’209 patent”), entitled “Gas Delivery Device And System” issued on
November 5, 2013, and names Duncan P. Bathe, John
Klaus, and David Christensen as the inventors.
49.
The ’209 patent is listed in the Orange Book for
INOmax® (NDA No. N020845).
50.
Form 3542 for the ’209 patent does not provide a
use code.

44a
51.

The ’209 patent is owned by Mallinckrodt IP.

52.

The ’209 patent was filed on June 11, 2012.

53.
The ’209 patent is the National Stage Entry of
PCT/US11/20319, which was filed on January 6, 2011.
54.
U.S. Patent No. 8,776,794 (“the ’794 patent”), entitled “Nitric Oxide Delivery Device” issued on July 15,
2014, and names Duncan P. Bathe, John Klaus, and David Christensen as the inventors.
55.
The ’794 patent is listed in the Orange Book for
INOmax® (NDA No. N020845).
56.
Form 3542 for the ’794 patent lists “A method of
providing a predetermined concentration of nitric oxide
to a patient” as the use code for claims 15-20.
57.

The ’794 patent is owned by Mallinckrodt IP.

58.

The ’794 patent was filed on October 29, 2013.

59.
The ’794 patent claims priority to U.S. Patent
Application No. 13/677,483, filed on November 15, 2012,
which claims priority to U.S. Patent Application No.
13/509,873, filed June 11, 2012, which is the National
Stage Entry of PCT/US2011/020319, filed January 6,
2011.
60.
U.S. Patent No. 8,776,795 (“the ’795 patent”), entitled “Gas Delivery Device and System” issued on July
15, 2014, and names Duncan P. Bathe, John Klaus, and
David Christensen as the inventors.
61.
The ’795 patent is listed in the Orange Book for
INOmax® (NDA No. N020845).
62.
Form 3542 for the ’795 patent lists “A method of
providing a predetermined concentration of nitric oxide
to a patient” as the use code for claims 15-20.

45a
63.

The ’795 patent is owned by Mallinckrodt IP.

64.

The ’795 patent was filed on October 29, 2013.

65.
The ’795 patent claims priority to U.S. Patent
Application No. 13/509,873, filed on June 11, 2012, which
is the National Stage Entry of PCT/US11/20319, filed
January 6, 2011.
66.
U.S. Patent No. 9,295,802 (“the ’802 patent”), entitled “Gas Delivery Device and System” issued on
March 29, 2016, and names Duncan P. Bathe, John
Klaus, and David Christensen as the inventors.
67.
The ’802 patent is listed in the Orange Book for
INOmax® (NDA No. N020845).
68.
Form 3542 for the ’802 patent lists “A method of
providing a predetermined concentration of nitric oxide
to a patient” as the use code for claims 10-20.
69.

The ’802 patent is owned by Mallinckrodt IP.

70.

The ’802 patent was filed on February 24, 2015.

71.
The ’802 patent claims priority to U.S. Patent
Application No. 14/065,962, filed on October 29, 2013,
which claims priority to U.S. Patent Application No.
13/509,873, which is the National Stage Entry of
PCT/US11/20319, filed January 6, 2011.
72.
U.S. Patent No. 9,265,911 (“the ’911 patent”), entitled “Gas Delivery Device and System” issued on
February 23, 2016, and names Duncan P. Bathe, John
Klaus, and David Christensen as the inventors.
73.
The ’911 patent is listed in the Orange Book for
INOmax® (NDA No. N020845).
74.
Form 3542 for the ’911 patent lists “A method of
providing nitric oxide therapy to a patient by verifying

46a
gas information of nitric oxide prior to delivery to patient” as the use code for claims 10-19.
75.

The ’911 patent is owned by Mallinckrodt IP.

76.

The ’911 patent was filed on October 29, 2013.

77.
The ’911 patent claims priority to U.S. Patent
Application No. 13/509,873, filed on June 11, 2012, which
is the National Stage Entry of PCT/US11/20319, filed
January 6, 2011.
78.
U.S. Patent No. 9,279,794 (“the ’9794 patent”),
entitled “Systems and Methods For Compensating
Long Term Sensitivity Drift of Electrochemical Gas
Sensors Exposed to Nitric Oxide” issued on March 8,
2016, and names Craig R. Tolmie, Jeff Milsap, and
Jaron M. Acker as the inventors.
79.
The ’9794 patent is listed in the Orange Book for
INOmax® (NDA No. N020845).
80.
Form 3542 for the ’9794 patent lists “A method
of providing nitric oxide therapy to a patient by compensating long-term sensitivity drift of electrochemical
gas sensors used in systems for delivering therapeutic
nitric oxide to a patient” as the use code for claims 1-18.
81.

The ’9794 patent is owned by Mallinckrodt IP.

82.

The ’9794 patent was filed on February 19, 2015.

83.
The ’9794 patent claims priority to U.S. Provisional Patent Application No. 61/941,725, filed February 19, 2014.
B.

Background

84.
Mallinckrodt IP owns approved New Drug Application (“NDA”) No. N020845 for nitric oxide 100 and
800 ppm for inhalation and is prescribed and sold in the
United States under the trademark INOmax®.

47a
85.
The U.S. Food and Drug Administration
(“FDA”) approved NDA No. N020845 on December 23,
1999.
86.
The original label for INOmax® was published
on August 9, 2000.
87.
The currently approved indication for INOmax®
states “INOmax is a vasodilator indicated to improve
oxygenation and reduce the need for extracorporeal
membrane oxygenation in term and near-term (>34
weeks gestation) neonates with hypoxic respiratory
failure associated with clinical or echocardiographic evidence of pulmonary hypertension in conjunction with
ventilator support and other appropriate agents.”
88.
The current approved label for INOmax® states
in the Highlights of Prescribing Information section
under Dosage and Administration: “The recommended
dose is 20 ppm, maintained for up to 14 days or until the
underlying oxygen desaturation has resolved (2.1).
Doses greater than 20 ppm are not recommended (2.1,
5.2). Administration: Use only with an INOmax
DSIR® operated by trained personnel (2.2). Avoid abrupt discontinuation (2.2, 5.1).”
89.
Praxair, Inc. and Praxair Distribution, Inc. assembled and filed with the FDA, pursuant to 21 U.S.C.
§ 355(j), Abbreviated New Drug Application (“ANDA”)
No. 207141 (hereinafter the “Praxair ANDA”) concerning a proposed drug product Noxivent™, 100 ppm and
800 ppm nitric oxide for inhalation (“Praxair’s Proposed
ANDA Product”).
90.
The Praxair ANDA refers to and relies and upon
NDA No. N020845 for INOmax®.
91.
Defendants notified Plaintiffs in a letter pursuant to 21 U.S.C. § 355(j)(2)(B), dated January 6, 2015

48a
(“2015 Praxair Notice Letter”) that they had submitted
to the FDA the Praxair ANDA and sought approval to
engage in the commercial manufacture, use, or sale of
Praxair’s Proposed ANDA Product before the expiration of the ’966 patent, ’284 patent, ’163 patent, ’741 patent, ’112 patent, ’904 patent, ’210 patent, ’209 patent,
’794 patent, and ’795 patent.
92.
Defendants certified that the ’966 patent, ’284
patent, ’163 patent, ’741 patent, ’112 patent, ’904 patent,
’210 patent, ’209 patent, ’794 patent, and ’795 patent are
invalid, unenforceable and/or will not be infringed by
the manufacture, use or sale of Praxair’s Proposed
ANDA Product.
93.
Defendants sent Plaintiffs a letter dated May 5,
2016 purporting to notify Plaintiffs pursuant to 21
U.S.C. § 355(i)(2)(B) (“2016 Praxair Notice Letter”)
that Defendants had submitted to the FDA the Praxair
ANDA and sought approval to engage in the commercial manufacture, use, or sales of Praxair’s Proposed
ANDA Product before the expiration of the ’802 patent,
’911 patent, and ’9794 patent.
94.
In that May 5, 2016 letter, Defendants certified
that the ’802 patent, ’911 patent, and ’9794 patent are
invalid, unenforceable and/or will not be infringed by
the manufacture, use or sale of Praxair’s Proposed
ANDA Product.
95.
In a letter dated May 26, 2016 sent from Defendants’ counsel to Plaintiffs’ counsel, Defendants provided
an Offer of Confidential Access (“OCA”) to Defendants’
ANDA and 510(k).
96.
Defendants had knowledge of each of the Patents-in-Suit at least by the date when the notice letter
concerning each respective Patent-in-Suit was dated.

49a
97.
The NoxBoxi is an inhaled nitric oxide system
developed by Bedfont Scientific Ltd. (“Bedfont”), a
company in the United Kingdom.
98.
Bedfont filed a 510(k) application with the FDA
seeking approval for the NoxBoxi device.
C.

The Patents-in-Suit

99.
Collectively, the ’966, ’284, ’741, ’163, and ’112
patents may be referred to as the “HF” patents.
100.

Collectively, the ’209, ’794, ’795, ’911, and ’802
patents may be referred to as the “DSIR” patents.

101. U.S. Patent No. 9,279,794 may be referred to as
the ’9794 patent or as the “Sensor Drift” patent.
(1)

The Asserted Claims

102. Ikaria has asserted infringement of claim 20 of
the ’966 patent against Praxair.
103. Ikaria has asserted infringement of claim 18 of
the ’284 patent against Praxair.
104. lkaria has asserted infringement of claims 1, 4, 7,
9, and 18 of the ’741 patent against Praxair.
105. Ikaria has asserted infringement of claims 9, 11,
13, and 15 of the ’163 patent against Praxair.
106. Ikaria has asserted infringement of claims 1, 7,
and 9 of the ’112 patent against Praxair.
107. Ikaria has asserted infringement of claim 6 of
the ’209 patent against Praxair.
108. Ikaria has asserted infringement of claims 1 and
15 of the ’794 patent against Praxair.
109. lkaria has asserted infringement of claims 1 and
15 of the ’795 patent against Praxair.

50a
110. Ikaria has asserted infringement of claims 1 and
10 of the ’911 patent against Praxair.
111. Ikaria has asserted infringement of claims 1 and
10 of the ’802 patent against Praxair.
112. Ikaria has asserted infringement of claims 3, 6,
16, 17, and 18 of the ’9794 patent against Ikaria.
i.

’966 Patent, Claim 20

113. Claim 20 of the ’966 patent claims: “[t]he method
of claim 13, wherein the first child is determined to be
at particular risk not only of pulmonary edema, but also
of other Serious Adverse Events, upon treatment with
inhaled nitric oxide, and the first child is excluded from
inhaled nitric oxide treatment based on the determination that the first child has left ventricular dysfunction
and so is at particular risk not only of pulmonary edema, but also other Serious Adverse Events, upon
treatment with inhaled nitric oxide.
114. Claim 20 is dependent on claim 13, which discloses: “[a] method of treatment comprising: (a) performing echocardiography to identify a plurality of children
who are in need of20 ppm inhaled nitric oxide treatment for pulmonary hypertension, wherein the children
are not dependent on right-to-left shunting of blood; (b)
determining that a first child of the plurality has a pulmonary capillary wedge pressure greater than or equal
to 20mmHg and thus has left ventricular dysfunction,
so is at particular risk of pulmonary edema upon treatment with inhaled nitric oxide; (c) determining that a
second child of the plurality does not have left ventricular dysfunction; (d) administering the 20 ppm inhaled
nitric oxide treatment to the second child; and (e) excluding the first child from treatment with inhaled nitric oxide, based on the determination that the first

51a
child has left ventricular dysfunction, so is at particular
risk of pulmonary edema upon treatment with inhaled
nitric oxide.”
ii.

’284 patent, Claim 18

115. Claim 18 of the ’284 patent claims: “[t]he method
of claim 13, wherein determining that the first patient
of the plurality has pre-existing left ventricular dysfunction and the second patient of the plurality does not
have pre-existing left ventricular dysfunction comprises performing echocardiography on the first and second
patients.”
116. Claim 18 is dependent on claim 13, which reads:
“[a] method of treatment comprising: (a) performing
echocardiography to identify a plurality of term or
near-term neonate patients who are in need of 20 ppm
inhaled nitric oxide treatment for pulmonary hypertension, wherein the patients are not dependent on rightto-left shunting of blood; (b) determining that a first
patient of the plurality has a pulmonary capillary
wedge pressure greater than or equal to 20mmHg and
thus has left ventricular dysfunction, so is at particular
risk of pulmonary edema upon treatment with inhaled
nitric oxide; (c) determining that a second patient of the
plurality does not have left ventricular dysfunction; (d)
administering the 20ppminhaled nitric oxide treatment
to the second patient; and (e) excluding the first patient
from treatment with inhaled nitric oxide, based on the
determination that the first patient has left ventricular
dysfunction, so is at particular risk of pulmonary edema
upon treatment with inhaled nitric oxide.”
iii.

’741 Patent, Claims 1, 4, 7, 9, and 18

117.
Claim 1 of the ’741 patent claims: “[a] method
of treating patients who are candidates for inhaled ni-

52a
tric oxide treatment, which method reduces the risk
that inhalation of nitric oxide gas will induce an increase in pulmonary capillary wedge pressure (PCWP)
leading to pulmonary edema in neonatal patients with
hypoxic respiratory failure, the method comprising: (a)
identifying a plurality of term or near-term neonatal
patients who have hypoxic respiratory failure and are
candidates for 20 ppm inhaled nitric oxide treatment;
(b) determining that a first patient of the plurality does
not have left ventricular dysfunction; (c) determining
that a second patient of the plurality has left ventricular dysfunction, so is at particular risk of increased
PCWP leading to pulmonary edema upon treatment
with inhaled nitric oxide; (d) administering 20 ppm inhaled nitric oxide treatment to the first patient; and (e)
excluding the second patient from treatment with inhaled nitric oxide, based on the determination that the
second patient has left ventricular dysfunction, so is at
particular risk of increased PCWP leading to pulmonary edema upon treatment with inhaled nitric oxide.”
118.
Claim 4 of the ’741 patent recites: “[t]he method of claim 1, wherein the second patient is determined
to be at particular risk not only of increased PCWP
leading to pulmonary edema, but also of other serious
adverse events, upon treatment with inhaled nitric oxide, and the second patient is excluded from inhaled nitric oxide treatment based on the determination that
the second patient has left ventricular dysfunction and
so is at particular risk not only of increased PCWP
leading to pulmonary edema, but also other serious adverse events, upon treatment with inhaled nitric oxide.”
119.
Claim 7 of the ’741 patent discloses: “[t]he
method of claim 1, wherein determining that the first
patient does not have pre-existing left ventricular dys-

53a
function and the second patient does have pre-existing
left ventricular dysfunction comprises performing
echocardiography on the first and second patients.”
120.
Claim 9 of the ’741 patent claims: “[a] method
of treating patients who are candidates for inhaled nitric oxide treatment, which method reduces the risk
that inhalation of the nitric oxide gas will induce an increase in PCWP leading to pulmonary edema in neonatal patients with hypoxic respiratory failure, said
method comprising: (a) identifying a plurality of term
or near-term neonatal patients who have hypoxic respiratory failure and are candidates for 20 ppm inhaled
nitric oxide treatment; (b) determining that a first patient of the plurality does not have left ventricular dysfunction; (e) determining that a second patient of the
plurality has left ventricular dysfunction, so is at particular risk of increased PCWP leading to pulmonary
edema upon treatment with inhaled nitric oxide; (d)
administering 20 ppm inhaled nitric oxide treatment to
the first patient; and (e) excluding the second patient
from treatment with inhaled nitric oxide based on the
determination in (c), or, despite the second patient’s
ongoing need for inhaled nitric oxide treatment for hypoxic respiratory failure, discontinuing the second patient’s treatment with inhaled nitric oxide after it was
begun, the discontinuation being in view, of the determination in (c).”
121.
Claim 18 of the ’741 patent discloses: “[t]he
method of claim 17, wherein the other serious adverse
events comprise one or more of increased PCWP, systemic hypotension, bradycardia, or cardiac arrest.”
122.
Claim 18 is dependent on claim 17, which
claims: “[t]he method of claim 9, wherein the second
patient is determined to be at particular risk not only of

54a
increased PCWP leading to pulmonary edema, but also
of other serious adverse events, upon treatment with
inhaled nitric oxide; and either (i) the second patient is
excluded from inhaled nitric oxide treatment based on
both the determination in (c) and the determination
that the second patient is also at risk of other serious
adverse events upon treatment with inhaled nitric oxide; or (ii) despite the second patient’s ongoing need for
inhaled nitric oxide treatment for hypoxic respiratory
failure, the second patient’s treatment with inhaled nitric oxide is discontinued after it was begun, the discontinuation being in view of both the determination in (c)
and the determination that the second patient is also at
risk of other serious adverse events upon treatment
with inhaled nitric oxide.”
iv.

’163 Patent, Claims 9, 11, 13, and 15

123.
Claim 9 of the ’163 patent claims: “[t]he method of claim 6, wherein the first patient is determined to
be at particular risk not only of pulmonary edema, but
also of other serious adverse events, upon treatment
with inhaled nitric oxide, and the first patient is excluded from inhaled nitric oxide treatment based on the
determination that the first patient has left ventricular
dysfunction and so is at particular risk not only of pulmonary edema, but also other serious adverse events,
upon treatment with inhaled nitric oxide.”
124.
Claim 9 is dependent on claim 6, which recites:
“[a] method of treatment comprising: (a) performing
echocardiography to identify a plurality of term or
near-term neonate patients who are in need of 20 ppm
inhaled nitric oxide treatment for hypoxic respiratory
failure, wherein the patients are not dependent on
right-to-left shunting of blood; (b) determining that a
first patient of the plurality has left ventricular dys-

55a
function consistent with a pulmonary capillary wedge
pressure greater than or equal to 20mm Hg, so is at
particular risk of pulmonary edema upon treatment
with inhaled nitric oxide; (c) determining that a second
patient of the plurality does not have left ventricular
dysfunction; (d) administering the 20 ppm inhaled nitric
oxide treatment to the second patient; and (e) excluding
the first patient from treatment with inhaled nitric oxide, based on the determination that the first patient
has left ventricular dysfunction, so is at particular risk
of pulmonary edema upon treatment with inhaled nitric
oxide.”
125.
Claim 11 of the ’163 patent discloses: “[t]he
method of claim 6, wherein determining that the first
patient of the plurality has pre-existing left ventricular
dysfunction and the second patient of the plurality does
not have pre-existing left ventricular dysfunction comprises performing echocardiography on the first and
second patients.”
126.
Claim 13 of the ’163 patent claims: “[t]he method of claim 12, wherein the determination in (b) comprises performing echocardiography.”
127.
Claim 13 is dependent on claim 12, which recites: “[a] method of reducing the risk of occurrence of
pulmonary edema associated with a medical treatment
comprising inhalation of 20 ppm nitric oxide gas, said
method comprising: (a) performing echocardiography
to identify a term or near term neonate patient in need
of 20 ppm inhaled nitric oxide treatment for hypoxic
respiratory failure, wherein the patient is not dependent on right-to-left shunting of blood; (b) determining
that the patient identified in (a) has left ventricular
dysfunction consistent with a pulmonary capillary
wedge pressure greater than or equal to 20mm Hg, so

56a
is at particular risk of pulmonary edema upon treatment with inhaled nitric oxide; and (c) excluding the
patient from inhaled nitric oxide treatment, or, despite
the patient’s ongoing need for treatment for hypoxic
respiratory failure, discontinuing the treatment after it
has begun, the exclusion or discontinuation being based
on the determination that the patient has left ventricular dysfunction and so is at particular risk of pulmonary
edema upon treatment with inhaled nitric oxide.”
128.
Claim 15 of the ’163 patent discloses: “[t]he
method of claim 12, wherein the patient is determined
to be at particular risk not only of pulmonary edema,
but also of other serious adverse events, upon treatment with inhaled nitric oxide, and the patient is excluded from inhaled nitric oxide treatment, or, despite
the patient’s ongoing need for treatment for hypoxic
respiratory failure, the patient’s treatment with inhaled
nitric oxide is discontinued after it was begun, the exclusion or discontinuation being based on the determination that the patient has left ventricular dysfunction
and so is at particular risk not only of pulmonary edema, but also other serious adverse events, upon treatment with inhaled nitric oxide.”
v.

’112 Patent, Claims 1, 7, and 9

129.
Claim 1 of the ’112 patent claims: “[a] method
of providing pharmaceutically acceptable nitric oxide
gas, the method comprising: obtaining a cylinder containing compressed nitric oxide gas in the form of a
gaseous blend of nitric oxide and nitrogen; supplying
the cylinder containing compressed nitric oxide gas to a
medical provider responsible for treating neonates who
have hypoxic respiratory failure, including some who
do not have left ventricular dysfunction; providing to
the medical provider (i) information that a recommend-

57a
ed dose of inhaled nitric oxide gas for treatment of neonates with hypoxic respiratory failure is 20 ppm nitric
oxide and (ii) information that, in patients with preexisting left ventricular dysfunction, inhaled nitric oxide may increase pulmonary capillary wedge pressure
(PCWP), leading to pulmonary edema, the information
of (ii) being sufficient to cause a medical provider considering inhaled nitric oxide treatment for a plurality of
neonatal patients who (a) are suffering from a condition
for which inhaled nitric oxide is indicated, and (b) have
pre-existing left ventricular dysfunction, to elect to
avoid treating one or more of the plurality of patients
with inhaled nitric oxide in order to avoid putting the
one or more patients at risk of pulmonary edema.”
130.
Claim 7 of the ’112 patent claims: “[a] method
of providing pharmaceutically acceptable nitric oxide
gas, the method comprising: obtaining a cylinder containing compressed nitric oxide gas in the form of a
gaseous blend of nitric oxide and nitrogen; supplying
the cylinder containing compressed nitric oxide gas to a
medical provider responsible for treating neonates who
have hypoxic respiratory failure, including some who
do not have pre-existing left ventricular dysfunction;
and providing to the medical provider (i) information
that a recommended dose of inhaled nitric oxide gas for
treatment of neonates with hypoxic respiratory failure
is 20 ppm nitric oxide, (ii) information that patients who
have pre-existing left ventricular dysfunction and are
treated with inhaled nitric oxide may experience pulmonary edema, and (iii) a recommendation that, if pulmonary edema occurs in a patient who has pre-existing
left ventricular dysfunction and is treated with inhaled
nitric oxide, the treatment with inhaled nitric oxide
should be discontinued.”

58a
131.
Claim 9 of the ’112 patent discloses: “[t]he
method of claim 7, further comprising: performing at
least one diagnostic process to identify a neonatal patient who has hypoxic respiratory failure and is a candidate for inhaled nitric oxide treatment; determining
prior to treatment with inhaled nitric oxide that the neonatal patient has pre-existing left ventricular dysfunction; treating the neonatal patient with 20 ppm inhaled
nitric oxide, whereupon the neonatal patient experiences pulmonary edema; and in accordance with the recommendation of (iii), discontinuing the treatment with
inhaled nitric oxide due to the neonatal patient’s pulmonary edema.”
vi.

’209 Patent, Claim 6

132.
Claim 6 of the ’209 patent claims: “[a] gas delivery system comprising: a gas delivery device to administer therapy gas from a gas source, the gas delivery device comprising: a valve attachable to the gas
source, the valve including an inlet and an outlet in fluid
communication and a valve actuator to open or close the
valve to allow the gas through the valve to a control
module that control gas delivery to a subject; and a circuit including: memory to store gas data comprising
one or more of gas identification, gas expiration date
and gas concentration and a processor and a transceiver in communication with the memory to send and receive wireless optical line-of-sight signals to communicate the gas data to the control module and to verify
one or more of the correct gas, the correct gas concentration and that the gas is not expired; and the control
module, wherein the control module is in fluid communication with the outlet of the valve and a ventilator
and the control module comprises: a CPU transceiver
to receive line-of-sight signals from the transceiver;
and a central processing trait (CPU) in communication

59a
with the CPU transceiver and including a CPU
memory, wherein the transceiver communicates the
gas data to the CPU transceiver for storage in the CPU
memory, wherein the control module further comprises
an input means to enter patient information into the
CPU memory; and a display, and wherein the CPU
compares the patient information entered into the CPU
memory via the input means and the gas data from the
transceiver.”
vii. ’794 Patent, Claims 1 and 15
133.
Claim 1 of the ’794 Patent claims: “[a] gas delivery device comprising: a gas source to provide therapy gas comprising nitric oxide; a valve attachable to the
gas source, the valve including an inlet and an outlet in
fluid communication and a valve actuator to open or
close the valve to allow the gas through the valve to a
control module that delivers the therapy gas comprising nitric oxide in an amount effective to treat or prevent hypoxic respiratory failure; and a circuit including:
a memory to store gas data comprising one or more of
gas identification, gas expiration date and gas concentration; and a processor and a transceiver in communication with the memory to send and receive signals to
communicate the gas data to the control module that
controls gas delivery to a subject and to verify one or
more of the gas identification, the gas concentration
and that gas is not expired.
134.
Claim 15 of the ’794 recites: “[a] method for
administering a therapy gas to a patient, comprising:
establishing communication between a gas delivery device and a control module for administering therapy gas
to a subject via a first transceiver and a second transceiver, wherein the gas delivery device comprises a gas
source and the first transceiver is in communication

60a
with a first memory that stores gas data comprising
one or more of gas identification, gas expiration date
and gas concentration of the gas source, wherein the
control module comprises the second transceiver and a
second memory; communicating the gas data from the
first transceiver to the second transceiver via wired or
wireless signals; comparing the gas data with patient
information stored in the second memory to verify the
gas data; and delivering therapy gas comprising nitric
oxide to the patient in an amount effective to treat or
prevent hypoxic respiratory failure.”
viii. ’795 Patent, Claims 1 and 15
135.
Claim 1 of the ’795 patent claims: “[a] gas delivery device to administer therapy gas from a gas
source, the gas delivery device comprising: a valve attachable to the gas source, the valve including an inlet
and an outlet in fluid communication and a valve actuator to open or close the valve to allow the gas through
the valve; and a circuit including: a memory to store
gas data comprising one or more of gas identification,
gas expiration date and gas concentration; and a processor and a transceiver in communication with the
memory to send and receive signals to communicate the
gas data to a control module that controls gas delivery
to a subject and to verify one or more of the gas identification, the gas concentration and that the gas is not
expired.”
136.
Claim 15 of the ’795 patent recites: “[a] method
for administering a therapy gas to a patient, comprising: establishing communication between a gas delivery device and a control module for administering therapy gas to a subject via a first transceiver and a second
transceiver, wherein the gas delivery device comprises
a gas source and the first transceiver is in communica-

61a
tion with a first memory that stores gas data comprising one or more of gas identification, gas expiration
date and gas concentration of the gas source, wherein
the control module comprises the second transceiver
and a second memory; communicating the gas data
from the first transceiver to the second transceiver via
wired or wireless signals; comparing the gas data with
patient information stored in the second memory to
verify the gas data; and controlling delivery of the
therapy gas to the patient.”
ix.

’911 Patent, Claims 1 and 10

137.
Claim 1 of the ’911 patent claims: A therapy
gas delivery system comprising: a device comprising: a
drug source; and a circuit comprising: a first memory
to store drug data comprising one or more of drug identification, drug expiration date and drag concentration
of the drug source; and a first processor and a first
transceiver in communication with the first memory;
and a control module that controls delivery of therapy
gas to a subject by delivering therapy gas to a ventilator circuit, the control module comprising a second
memory, a second transceiver and a second processor,
wherein the second transceiver and the second processor are in communication with the second memory,
wherein the first transceiver and the second transceiver send and receive signals to communicate the drug
data to the control module and to verify one or more of
the drug identification, the drug concentration and that
the drug is not expired.”
138.
Claim 10 of the ’911 discloses: “[a] method for
administering a therapy gas to a patient, comprising:
establishing communication between a device and a
control module for administering therapy gas to a subject via a first transceiver and a second transceiver,

62a
wherein the device comprises a drug source and the
first transceiver is in communication with a first
memory that stores drug data comprising one or more
of drug identification, drug expiration date and drug
concentration of the drug source, and wherein the control module comprises the second transceiver and a
second memory; communicating the drug data from the
first transceiver to the second transceiver via wired or
wireless signals; comparing the drag data with patient
information stored in the second memory; and controlling delivery of the therapy gas to the patient.”
x.

’802 Patent, Claims 1 and 10

139.
Claim 1 of the ’802 patent claims: “[a] therapy
gas delivery system comprising: a device comprising: a
drug source; a first memory to store drug data comprising one or more of drug identification, drug expiration
date and drug concentration of the drug source; and a
first transceiver in communication with the first
memory; and a control module that controls delivery of
therapy gas to a subject by delivering therapy gas to a
ventilator circuit, the control module comprising a second memory and a second transceiver, wherein the second transceiver is in communication with the second
memory, wherein the first transceiver and the second
transceiver send and receive signals to communicate
the drug data to the control module and to verify one or
more of the drug identification, the drag concentration
and that the drug is not expired.”
140.
Claim 10 of the ’802 patent discloses: “[a]
method for verifying therapy gas for delivery to a patient, the method comprising: establishing communication between a device and a control module for administering therapy gas to a subject, wherein the device
comprises a drug source and a first memory that stores

63a
drug data comprising one or more of drug identification, drug expiration date and drag concentration of the
drug source, and wherein the control module comprises
a second memory; communicating the drug data from
the device to the control module via signals; verifying
the drug data to verify one or more of the drug identification, the drug concentration and that the drug is not
expired; and comparing the drug data with patient information stored in the second memory and emitting an
alert based on the comparison of the drug data and the
patient information.”
xi.

’9794 Patent, Claim 3, 6, 16, 17, and 18

141.
Claim 3 of the ’9794 patent claims: “[t]he method of claim 2, wherein the sensor recalibration schedule
comprises a set of values representing intended intervals between interruptions of the continuous measuring
of the nitric oxide concentration.”
142.
Claim 3 is dependent on claim 2, which is, in
turn, dependent on claim 1. Claim 2 of the ’9794 patent
discloses: “[t]he method of claim 1, which further comprises interrupting the continuous measuring of the nitric oxide concentration when indicated by the identified sensor recalibration schedule; exposing the first
nitric oxide sensor to a gas having a zero concentration
of nitric oxide for a period of time sufficient to detect
the output value indicative of the zero concentration;
and determining the response by the first nitric oxide
sensor to the gas having a zero concentration of the nitric oxide.” Claim 1 recites: “[a] method for compensating for output drift of an electrochemical gas sensor
exposed to nitric oxide in a controlled environment
comprising: establishing, via a setting in a system controller, a dosage of a nitric oxide to be delivered to a
patient; delivering, via a flow control valve, a therapeu-

64a
tic gas comprising nitric oxide to a breathing circuit for
delivery to the patient; identifying a change in the setting the system controller; identifying, via the system
controller, a sensor recalibration schedule stored in a
system controller memory in response to the identified
change; identifying, via the system controller, a time
for executing a calibration from the sensor recalibration
schedule stored in the system controller memory; detecting, via the system controller, if an alarm is active
or has been active within a predetermined timeframe at
the time the calibration is to be executed, wherein the
calibration is postponed if the active alarm is detected
or has been detected within the predetermined
timeframe, and the calibration is executed if the active
alarm is not detected or has not been detected within
the predetermined timeframe; implementing, via the
system controller, the sensor recalibration schedule
identified; continuously measuring, via a first nitric oxide sensor, a concentration of the nitric oxide in the
breathing circuit; communicating a signal representative of the nitric oxide concentration from the first nitric oxide sensor to the system controller over a communication path; and determining a response by the
first nitric oxide sensor to the nitric oxide concentration after the change in the setting in the system controller.”
143.
Claim 6 of the ’9794 patent claims: “[t]he method of claim 5, which further comprises accessing a slope
of a previous calibration line stored in the system controller memory, and generating a new calibration line
using the stored response of the first nitric oxide sensor
to the gas having the zero concentration of nitric oxide
and the slope of the previous calibration line.”
144.
Claim 6 is dependent on claim 5, which, in turn,
is dependent on claim 2. Claim 5 recites: “[t]he method

65a
of claim 2, which further comprises storing the response of the first nitric oxide sensor to the gas having
a zero concentration of nitric oxide in the system controller memory.”
145.
Claim 16 of the ’9794 patent claims: “[t]he
method of claim 1, which further comprises postponing
execution of the calibration by a predetermined time
period, and detecting if an alarm is active or has been
active within the predetermined timeframe after the
predetermined time period has elapsed, wherein the
calibration is postponed if the active alarm is detected
or has been detected within the predetermined
timeframe, and the calibration is executed if the active
alarm is not detected or has not been detected within
the predetermined timeframe.”
146.
Claim 17 of the ’9794 patent discloses: “[a]
method for compensating for output drift of an electrochemical gas sensor exposed to nitric oxide in a controlled environment, comprising: delivering, via a flow
control valve, a therapeutic gas comprising nitric oxide
to a breathing circuit for delivery to a patient in need
thereof; detecting, via a system controller, a change in
set dose of the therapeutic gas; selecting, via the system controller, a sensor recalibration schedule stored in
a system controller memory in response to the change
in set dose; identifying, via a system controller, a time
for executing a calibration from a sensor recalibration
schedule stored in a system controller memory; detecting, via the system controller, if an alarm is active or
has been active within a predetermined timeframe at
the time the calibration is to be executed, wherein the
calibration is postponed if the active alarm is detected
or has been detected within the predetermined
timeframe; detecting, via the system controller, if a user is interacting or has interacted with the therapeutic

66a
gas delivery system within a predetermined timeframe
at the time the calibration is to be executed, wherein
the calibration is postponed if the user is interacting or
has interacted with the therapeutic gas delivery system
within the predetermined timeframe; executing, via the
system controller, the calibration (i) if the active alarm
is not detected or has not been detected within the predetermined timeframe, and (ii) if the user is not interacting or has not interacted with the therapeutic gas
delivery system within the predetermined timeframe.”
147.
Claim 18 of the ’9794 patent recites: “[a] method for compensating for output drift of an electrochemical gas sensor exposed to nitric oxide in a controlled
environment, comprising: delivering, via a flow control
valve, a therapeutic gas comprising nitric oxide to a
breathing circuit for delivery to a patient in need
thereof; detecting, via a system controller, a change in
set dose of the therapeutic gas; selecting, via the system controller, a sensor recalibration schedule stored in
a system controller memory in response to the change
in set dose; identifying, via the system controller, a
time for executing a calibration from the selected sensor recalibration schedule; detecting, via the system
controller, if an alarm is active or has been active within a predetermined timeframe at the time the calibration is to be executed, wherein the calibration is postponed if the active alarm is detected or has been detected within the predetermined timeframe; executing,
via the system controller, the calibration if the active
alarm is not detected or has not been detected within
the predetermined timeframe; and displaying, via a
display, a message to a user, when executing the calibration, indicating that the calibration is in effect
and/or recording in an electronic medical record (EMR)

67a
the occurrence of the calibration to inform the user of
the system’s activity.”
D.

Procedural History

148.
On February 19, 2015, Plaintiffs commenced
Civil Action No. 1:15-cv-00170-GMS regarding infringement of the ’284 patent, ’163 patent, ’741 patent,
’112 patent, ’904 patent, ’210 patent, ’209 patent, ’794
patent, and ’795 patent within 45 days from Plaintiffs’
receipt of the 2015 Praxair Notice Letter. (D.I. 1).
Plaintiffs amended their complaint on January 28, 2016,
adding declaratory judgment claims regarding the infringement of these asserted patents. (D.I. 57).
149.
On May 9, 2016, Defendants filed a motion
seeking leave to bring claims seeking declaratory
judgment of non-infringement on the ’802 patent, ’911
patent, and the ’9794 patent and declaratory judgment
claims requesting delisting and/or correction of the use
codes for the patents-in-suit pursuant to 21 U.S.C.
§ 355(j)(5)(C)(ii)(I). (D.I. 109). On August 2, 2016, the
court granted Defendants’ motion. (D.I. 157). Defendants filed their Second Amended Counterclaims on August 9, 2016. (D.I. 166).
150.
In their answer to Defendants’ Second Amended Counterclaims, filed August 25, 2016, Plaintiffs asserted infringement of the ’802 patent, ’911 patent, and
the ’9794 patent. (D.I. 182).
151.
Beginning on March 13, 2017, the court held a
seven-day bench trial.
152.
On May 3, 2017, Defendants and Plaintiffs
submitted their Post-Trial Proposed Findings of Fact
and Conclusions of Law. (D.I. 285); (D.I. 286).

68a
153.
On May 16, 2017, Plaintiffs moved to strike
previously undisclosed portions of Defendants’ proposed findings of fact and conclusions of law.2 (D.I.
291). The court denies that motion as part of this order.
III.

DISCUSSION AND CONCLUSIONS OF LAW

The court has subject matter jurisdiction over this
matter pursuant to 28 U.S.C. §§ 1331, 1338, and 2201.
Venue is proper in this court under 28 U.S.C. §§ 1391
and 1400(b). Praxair’s Rule 52(c) motion is granted and
Ikaria’s Rule 52(c) motion is denied. The court’s reasoning follows.
A.

The HF Patents

Plaintiffs argue that Defendants infringed the HF
patents. (D.I. 286 ¶ 25). Defendants assert an affirmative defense of invalidity of the HF patents under 35
U.S.C. § 101. (D.I. 285 ¶¶ 2-17). Because the court finds
that Defendants met their burden of proving invalidity
by clear and convincing evidence, the court will not address Plaintiffs’ infringement arguments with regard to
the HF patents.
1.

The Legal Standard

“A patent shall be presumed valid.” 35 U.S.C. § 282.
A party seeking to challenge the validity of a patent
based on 35 U.S.C. § 101 must demonstrate by clear
and convincing evidence3 that the invention described
2

The court denies Plaintiffs’ motion as moot. Plaintiffs’ motion relates to portions of Defendants’ proposed findings that the
court did not rely on in its decision to invalidate the HF patents
under 35 U.S.C. § 101.
3

“Clear and convincing evidence is evidence that places in the
fact finder an abiding conviction that the truth of [the] factual contentions are highly probable.” Alza Corp v. Andrx Pharms., LLC,

69a
in the patent is directed to patent-ineligible subject
matter and there are not inventive concepts capable of
transforming that subject matter into a patent-eligible
concept. Microsoft Corp. v. I4I Ltd. P’ship, 564 U.S. 91,
97 (2011).
Section 101 describes the general categories of patentable subject matter: “Whoever invents or discovers any new and useful process, machine, manufacture,
or composition of matter, or any new and useful improvement thereof, may obtain a patent therefor, subject to the conditions and requirements of this title.” 35
U.S.C. § 101. These broad classifications are limited,
however, by exceptions. “Laws of nature, natural phenomena, and abstract ideas are not patentable.” Alice
Corp. Pty. V. CLS Bank Int’l, 134 S. Ct. 2347, 2354
(2014) (quoting Ass’n for Molecular Pathology v. Myriad Genetics, Inc., 133 S. Ct. 2107, 2216. (2013)). Courts
have eschewed bright line rules circumscribing the contours of these exceptions. See id. (“[W]e tread carefully in construing this exclusionary principle lest it swallow all of patent law. At some level, all inventions …
embody, use, reflect, rest upon, or apply laws of nature,
natural phenomena, or abstract ideas.”) (internal citation and quotations marks omitted).
The Supreme Court’s decision in Alice reaffirmed
the framework first outlined in Mayo Collaborative
Services v. Prometheus Laboratories, Inc., 132 S. Ct.
1289 (2012), used to “distinguish[] patents that claim
laws of nature, natural phenomena, and abstract ideas
from those that claim patent-eligible applications of
those concepts.” See Alice, 134 S. Ct. at 2355.

607 F. Supp. 2d 614, 631 (D. Del. 2009) (internal quotations omitted) (quoting Colorado v. New Mexico, 467 U.S. 310, 316 (1984)).

70a
First, we determine whether the claims at issue are directed to one of those patentineligible concepts. If so, we then ask, what
else is there in the claims before us? To answer
that question, we consider the elements of each
claim both individually and as an ordered combination to determine whether the additional
elements transform the nature of the claim into
a patent-eligible application. We have described step two of this analysis as a search for
an “inventive concept”—i.e., an element or
combination of elements that is sufficient to ensure that the patent in practice amounts to significantly more than a patent upon the ineligible concept itself.
Id. (internal citations, quotations marks, and alterations
omitted). Thus, the court must determine (1) if the patented technology touches upon ineligible subject matter, and (2) whether there are sufficient inventive elements such that the invention is “ ‘ significantly more’
than a patent on an ineligible concept.” See DDR Holdings, LLC v. Hotels.com, L.P., 773 F.3d 1245, 1255 (Fed.
Cir. 2014) (quoting Alice, 134 S. Ct at 2355); see also Intellectual Ventures I LLC v. Capital One Bank (USA),
No. 2014-1506, 2015 WL 4068798, at *2 (Fed. Cir. July
6, 2015); OIP Techs., Inc. v. Amazon.com, Inc., 788 F.3d
1359, 1362 (Fed. Cir. 2015). The key question at the
second step is whether the claimed process identifies an
“inventive concept” that does more than recite “wellunderstood, routine, conventional activity.” FairWarning IP, LLC v. Iatric Sys., Inc., 839 F.3d 1089, 1093
(Fed. Cir. 2016). Thus, “an invention is not rendered
ineligible for patent simply because it involves an abstract concept.” Alice, 134 S. Ct. at 2354.

71a
2.

Natural Phenomenon

At step one of the Alice two-step framework, the
court asks whether the claims are directed to patent
ineligible subject matter, such as a law or phenomena of
nature. “Phenomena of nature, though just discovered
… are not patentable, as they are the basic tools of scientific and technological work.” Gottschalk v. Benson,
409 U.S. 63, 67 (1972); see Le Roy v. Tatham, 55 U.S.
156, 175, 14 L. Ed. 367 (1852) (“A principle, in the abstract, is a fundamental truth; an original cause; a motive; these cannot be patented, as no one can claim in
either of them an exclusive right.”). Granting discoverers of such phenomena a patent, and allowing them to
monopolize those basic tools of science, impedes rather
than promotes innovation. While certain applications of
laws or phenomena of nature can be patentable, “one
must do more than simply state the law of nature while
adding the words ‘apply it.’ ” Mayo Collaborative
Servs. v. Prometheus Labs., Inc., 566 U.S. 66, 72 (2012).
Claim 1 of the ’741 patent—the exemplary claim for
the HF patents4—is directed to a method of treating
patients with iNO in a way that “reduces the risk that
inhalation of nitric oxide gas will induce an increase in
pulmonary capillary wedge pressure (PCWP) leading
to pulmonary edema in neonatal patients with hypoxic
respiratory failure.” ’741 patent col. 14 ll. 28-33. The
representative claim comprises five steps:
(a) identifying a plurality of term or near-term
neonatal patients who have hypoxic respiratory
failure and are candidates for 20 ppm inhaled
nitric oxide treatment; (b) determining that a
4

Dr. Lawson identified claim 1 of the ’741 patent as representative of all the claims of the HF patents. Trial Tr. 1199:121200:12.

72a
first patient of the plurality does not have left
ventricular dysfunction; (c) determining that a
second patient of the plurality has left ventricular dysfunction, so is at particular risk of increased PCWP leading to pulmonary edema
upon treatment with inhaled nitric oxide; ( d)
administering 20 ppm inhaled nitric oxide
treatment to the first patient; and (e) excluding
the second patient from treatment with inhaled
nitric oxide, based on the determination that
the second patient has left ventricular dysfunction, so is at particular risk of increased PCWP
leading to pulmonary edema upon treatment
with inhaled nitric oxide.
’741 patent, col. 14 ll. 34-49. According to Plaintiffs, the
claims of the HF patents disclose patent-eligible subject matter because they recite a new way to use an existing drug—administering iNO in such a way that neonates or children with LVD are at a reduced risk of
pulmonary edema or other SAEs. (D.I. 286 ¶ 61). The
court disagrees with Plaintiffs characterization of the
claimed invention.
Plaintiffs’ expert, Dr. Rosenthal, and Defendants’
expert, Dr. Lawson, agreed that iNO’s effect on a neonate with LVD was a matter of human physiology. See
Tr. 1202:4-17; id. 1443:1-2. Specifically, administering
iNO to neonates or children with LVD may cause pulmonary edema because iNO causes the pulmonary vessels to relax. Tr. 1201:5-11. That relaxation leads to
increased blood flow, causing increased pulmonary capillary wedge pressure, and, possibly, pulmonary edema. Id. 1201:12-17, 1203:9-16. According to Dr. Lawson’s credible and convincing testimony, the “standard
observation” that a dysfunctional ventricle, in combination with increased blood flow, could cause a backup of

73a
venous blood, and, in turn, edema, is a law of nature
taught to first year medical students. Id. 1203:17-24.
Dr. Rosenthal noted that, though he did not dispute
Dr. Lawson’s description of the manner in which the
natural phenomena exits, id. 1401:3-5, he believed Dr.
Lawson’s description was overly simplistic. Id. 1404:56. According to Dr. Rosenthal, the discovery in the
INTO22 study—that neonates with LVD that were
treated with iNO were at an increased risk of pulmonary edema—was “much more probabilistic than deterministic.” Id. 1404:13-15. Just because a neonate
had LVD did not mean for sure that it would develop
pulmonary edema, according to Dr. Rosenthal. The
court finds that Dr. Rosenthal’s testimony in no way
undermines Dr. Lawson’s conclusions. Just because the
occurrence of pulmonary edema in a subset of patients
treated with iNO is “more probabilistic than deterministic” does not mean that it is not a natural phenomenon. Whether the phenomenon occurs in some patients,
as opposed to all patients, does not change the physiological reasons for its occurrence.
The court’s conclusion that the HF patents are invalid under § 101 is also supported by the marked similarity between the HF patents and the patents at issue
in Mayo. In Mayo, the relevant patent claimed a method by which physicians could determine “the likelihood
that a dosage of a thiopurine drug will prove ineffective
or cause harm.” 566 U.S. at 77. The steps of the method included “(1) ‘administering a [thiopurine] drug’ to a
patient and (2) ‘determining the [resulting metabolite]
level.’ ” Id at 76. “[I]f the levels of 6-TG in the blood of
a patient who [had] taken a dose of thiopurine drug exceeded about 400 pmol per 8x108 red blood cells, then
the administered dose [was] likely to produce toxic side
effects.” Id. at 77. The Court determined that, though

74a
human action is required by the “administering” step,
the relationship between concentrations of metabolites
in the blood and the effect of a dose of a thiopurine drug
is a mere consequence of how a patient’s body metabolizes thiopurine—an entirely natural process. Id.
Here, just like in Mayo, some of the claimed steps
require human action. Nonetheless, the core of the alleged invention is the increased risk of pulmonarycapillary wedge pressure that develops when administering iNO to term or near-term patients with both hypoxic respiratory failure and left-ventricular dysfunction. See Tr. 1201:2-16. That “invention” is really a patient populations’ natural physiological response to 20
ppm of inhaled nitric oxide treatment. While man discovered the adverse physiological response that occurs
when some patients receive iNO, such a discovery does
not amount to innovation. The question before the
court, therefore, is whether the claimed method does
more than simply describe the natural phenomenon. In
turning to that question, the court must tread cautiously, making sure that the method claim does more than
“recite the law of nature and[] add the instruction ‘apply the law.’ ” Mayo, 566 U.S. at 78.
3.

Inventive Concept

At step two of the Alice framework, the court examines the claim elements to determine if they contain
an inventive concept sufficient to transform the claimed
law or phenomena of nature into a patent-eligible application. We consider the claim limitations both individually and as an ordered combination to determine
whether they convert the claim into a patent-eligible
concept. See id. at 79.
The first step of claim 1 of the ’741 patent instructs
a physician to identify patients with hypoxic respirato-

75a
ry failure that are candidates for 20 ppm inhaled nitric
oxide treatment. Col. 14 ll. 34-36. The specification explains that the use of iNO “has been studied and reported in the literature.” Id. col. 1 ll. 25-26. The specification further notes that it is approved for the treatment of neonates with hypoxic respiratory failure and
the recommended dose is 20 ppm. Id. ll. 20-24, 49-50.
Neonates having hypoxic respiratory failure, according
to the specification, are identified through “clinical or
echocardiographic evidence of pulmonary hypertension.” Id. col. 1 ll. 22-24. The specification, therefore,
makes it clear that identifying patients who have hypoxic respiratory failure and are candidates for 20 ppm
of iNO treatment is routine and conventional in the art.
The second and third steps of claim 1 instruct a
physician to determine whether a first patient “does
not have left ventricular dysfunction” and determine
whether “a second patient … has left ventricular dysfunction, [putting that patient] at particular risk of increased PCWP leading to pulmonary edema upon
treatment with inhaled nitric oxide.” Id. col. 14 ll. 3742. The specification explicitly states that “[i]dentifying patients with pre-existing LVD is known to those
skilled in the medicinal arts, and such techniques for
example may include assessment of clinical signs and
symptoms of heart failure, or echocardiography diagnostic screening.” Id. col. 5 ll. 15-19. The fact that a patient with LVD is at a particular risk of increased
PCWP leading to pulmonary edema when treated with
iNO is the natural phenomenon that must be transformed by the additional claim elements in order to
survive a § 101 objection. Pulmonary edema or increased PCWP are possible natural reactions experienced by a specific patient population when treated
with iNO. Nothing in steps two or three of claim 1

76a
raise that natural phenomenon to the level of a patenteligible concept.
The fourth step of claim 1—“administering 20 ppm
inhaled nitric oxide treatment to the first patient”—is a
well-known treatment in the prior art for term or nearterm neonates suffering from hypoxic respiratory failure. Id. col. 14 ll. 43-44. As previously discussed with
regard to the first step of claim 1, the Background of
the Invention section of the specification explains that
iNO “is an approved drug product for the treatment of
term and near-term neonates having hypoxic respiratory failure.” Id. col. 1 ll. 20-23. Step 4 thus does not
transform a patient’s natural risk of developing pulmonary edema, given preexisting LVD and treatment
with iNO, into a patentable invention.
The last step of claim 1’s method directs physicians
to exclude a patient with LVD from treatment with
iNO, based on the determination that, given the patient’s LVD, he is at an increased risk of increased
PCWP leading to pulmonary edema when treated with
iNO. Id. col. 14 ll. 45-49. It is really this last step,
Plaintiff’s argue, that makes the method-at-issue worthy of patent protection. According to Plaintiffs,
“[n]one of the clinical trials (other than the revised INOT22 protocol) excluded neonates or children with
LVD from iNO therapy prior to the critical date, underscoring that the methods involve a new use for
iNO.” (D.I. 286 ¶ 61). But, as the Supreme Court and
the Federal Circuit have previously recognized, “even
valuable contributions [to science] can fall short of statutory patentable subject matter.” Ariosa Diagnostics,
Inc. v. Sequenom, Inc., 788 F.3d 1371, 1380 (Fed. Cir.
2015); see Myriad Genetics, Inc., 133 S.Ct. at 2117
(“Groundbreaking, innovative, or even brilliant discovery does not by itself satisfy the § 101 inquiry.”).

77a
The “excluding” step is really no different than the
“wherein” clauses of the patent at issue in Mayo. In
Mayo, after administering a drug and determining “the
level of 6-thioguanine in said subject,” the person practicing the patent was advised of the following: if the
level of 6-thioguanine was “less than about 230 pmol
per 8x108 red blood cells,” that “indicate[d] a need to
increase the amount of said drug subsequently administered.” 566 U.S. at 74-75. Here, just as in Mayo, the
application step of the claimed method simply tells the
relevant audience about the natural phenomenon and
directs that audience to take that phenomenon into account when treating patients. The natural phenomenon
is that some patients with preexisting LVD have a
negative reaction to treatment. Plaintiffs cannot seriously contend that it is a new practice to exclude certain patients from treatment with a drug when those
patients are at an increased risk of experiencing negative side effects from the drug. In fact, the HF’s patents inventor testimony would contradict any such
contention.5
Further, Dr. Baldassarre stated that it was his “observation” in the INTO22 study that led to the “invention” claimed in the HF patents. Tr. 516:6-20. The
purpose of the invention, according to Dr. Baldassarre,
was to notify physicians “to look for a specific circumstance which might indicate that [a] child was at a
higher risk of a serious adverse event.” Id 642:20-23.
5

Dr. Baldassarre—an inventor of the HF patents—admitted
that, prior to June 2008, physicians would likely discontinue treatment with iNO in neonates that experienced pulmonary edema.
Tr. 641:12-16. According to Dr. Baldassarre, physicians would
generally consider discontinuing treatment if a neonate experienced any serious adverse event. Id. 641:25-642:4.

78a
Simply excluding children or neonates from iNO
treatment based on that specific circumstance is no different than stating the law of nature and adding the
words “apply it.” While it may not have been routine to
exclude neonates with LVD from treatment with iNO
before the INOT22 study, that does not make the last
step of claim 1 inventive.6 Terminating treatment for
patients experiencing adverse reactions to it was
known in the art. Tacking that step on to a study’s observation of an adverse event associated with a specific
defect does not make the claim patent-eligible.
The remaining claim elements found in other claims
of the ’741 patent or other patents in the HF patent
family also fail to allege an inventive concept. In addition to the basic requirements of claim 1 of the ’741 patent, the ’112 patent claims require “obtaining a cylinder of compressed nitric oxide gas” and “supplying the
cylinder containing the compressed nitric oxide gas to a
medical provider responsible for treating neonates who
have hypoxic respiratory failure.” ’112 patent, col. 14 ll.
30-35. Those requirements are not inventive because
they are inherently necessary to treatment with iNO,
generally. The specification of the ’741 patent makes
clear that iNO was used to treat neonates with hypoxic
respiratory failure before the critical date. ’741 patent,
col 1 ll. 20-24. Inherent in such treatment is a distributor obtaining a cylinder of iNO and supplying it to doc6

The court questions whether the discovery of the association
between LVD and pulmonary edema in neonates treated with iNO
was, in fact, novel or surprising. The ’741 patent specification explicitly notes that the incidence of pulmonary edema among patients in the INOT22 study was “of interest because pulmonary
edema [was] previously reported with the use of iNO in patients
with LVD, and may be related to … overfilling of the left atrium.”
’741 patent, col. 13 ll. 26-29.

79a
tors. As such, the additional limitations present in the
’112 patent do not supply an inventive step.
Asserted claims in the ’163, ’284, and ’966 patents
include claims limitations that require: (1) identifying,
so that they may be excluded—patients “not dependent
on right-to-left shunting of blood,” ’163 patent, col 15 ll.
33-34; and (2) determining that a patient “has left ventricular dysfunction consistent with a pulmonary capillary wedge pressure greater than or equal to 20 mm
Hg.” Id. ll. 34-37.7 Doctors Lawson and Baldassarre
agree that, before June 30, 2008, patients dependent on
right-to-left shunting of blood would be excluded from
treatment with iNO. Tr. 640:8-12; 1271:5-8. They also
agree that it was known in the field—prior to the critical date—that children or neonates with a pulmonary
capillary wedge pressure of greater than 20 mm Hg
were suffering from LVD. Id. 641:1-5; 1271:21-24. The
’966 patent specification also confirms that “[i]dentifying patients with pre-existing LVD is known to those
skilled in the medicinal arts.” ’966 patent, col. 5 ll. 1112. Accordingly, those limitations cannot serve to save
the patent from invalidity under 35 U.S.C. § 101.
Plaintiffs also assert that “performing echocardiography,” as required by claim 6 of the ’163 patent8 from
which a number of the asserted claims depend, “cannot
be accomplished using what exists in nature.” (D.I. 286
at 20). Accordingly, Plaintiffs argue that the HF patents’ method is patent-eligible because the claim elements do not already exist in nature. Id. That is not
7

These same elements are also present in the asserted claims
of the ’284 and ’966 patents.
8

Claim 6 is not an asserted claim. Two of the four asserted
claims of the ’163 patent depend on claim 6, however.

80a
the relevant inquiry, however. Under the second step
of Alice, the court must ask itself if any of the claim elements add an inventive concept to transform the natural phenomenon into a patent-eligible invention. Performing echocardiography is a routine, conventional action, well known in the art. See ’163 patent, col. 1 ll. 1822 (“INOmax®, (nitric oxide) for inhalation is an approved drug product for the treatment of term and
near-term (>34 weeks gestation) neonates having hypoxic respiratory failure associated with clinical or
echocardiographic evidence of pulmonary hypertension.”). Therefore, that claim element cannot render
the HF method patent-eligible.
Further, some asserted claims require performing
echocardiography for specific purposes: (1) to determine if a child or neonate has LVD;9 or (2) to identify a
neonate or child with pulmonary hypertension or hypoxic respiratory failure in need of 20 ppm iNO.10 As
previously stated, the ’741 patent states that identifying patients with preexisting LVD through echocardiography diagnostic screening is well known to those
skilled in the art. ’741 patent, col. 5 ll. 15-19. The ’741
patent also indicates that INOmax is an approved
treatment for “neonates having hypoxic respiratory
failure associated with clinical or echocardiographic evidence of pulmonary hypertension.” ’741 patent, col. 1
ll. 22-24. Again, these claim elements do not save the
HF patents from invalidity.
Lastly, there are some asserted claims that require
a patient with LVD that is also at risk of other sever

9

The ’284, ’163, and ’741 patents all require this element.

10

The ’284, ’966, and the ’163 patents require this element.

81a
adverse reactions (“SAEs”) when treated with iNO.11
That limitation cannot supply the inventive concept,
however, because the relationship between the occurrence of treatment with iNO and other SAEs is no different than the relationship between LVD, treatment
with iNO, and pulmonary edema. It does not matter
what the severe adverse reaction is. Any reaction to
treatment with iNO will be a natural phenomenon, dictated by the patient’s physiological response to the
drug.
The court comes to the same conclusion when considering the method as a whole. Contrary to Plaintiff’s
assertion, the HF claims are not directed to a new way
to use an existing drug. Instead, the claims are directed to a conventional response to the discovery of a
serious adverse event. The method offers no innovation or improvement over the prior art outside of the
novel realization that patients with LVD should not receive iNO treatment because their bodies respond to
that treatment in a way that increases their risk of
pulmonary edema. While that realization may be valuable, it is not worthy of patent protection.
Federal Circuit precedent supports the court’s
finding. In Cleveland Clinic Found. v. True Health
Diagnostic LLC, 859 F.3d 1352 (Fed. Cir. 2017), the inventors claimed that they discovered “how to ‘see’
[myeloperoxidase (“MPO”)] in the blood and correlate
that to the risk of cardiovascular disease.” 859 F.3d at
1355. The court found that the methods were directed
mainly to detecting MPO in the blood—a naturally occurring enzyme—and then using the relationship between MPO values and predetermined control values
11

The ’163, ’966, and ’741 patents require this element.

82a
“to predict a patient’s risk of developing or having cardiovascular disease.” Id. at 1361. The court held that
the claimed method began and ended with the natural
phenomena “with no meaningful non-routine steps in
between.” Id. The specification of the patents at issue
in Cleveland Clinic confirmed that well-known techniques and commercially available testing kits could be
used for MPO detection. Id.
Here, the HF method uses well-known practices to
determine if patients are candidates for iNO treatment
and whether patients are suffering from LVD. Making
those determinations and then deciding to exclude certain patients from iNO treatment based on the relationship between LVD, iNO treatment, and pulmonary
edema is a very similar method to the one the Federal
Circuit deemed ineligible for patent protection in Cleveland Clinic.
The court finds it abundantly clear that the claim
limitations of the HF patents recite routine, conventional activity that does nothing to transform the law of
nature at the core of the “invention.” The court thus
concludes that the HF patents are invalid under 35
U.S.C. § 101 because they disclose patent-ineligible
subject matter without an inventive step that transforms that nature of the invention into something worthy of patent protection. Accordingly, the court will
not analyze Plaintiffs’ other validity arguments or
Plaintiffs’ arguments regarding infringement and nonobviousness of the HF patents.
B.

The DSIR Patents

Defendants do not dispute the validity of the DSIR
patents. Instead, they argue that their nitric oxide cylinder, Noxivent, and their iNO delivery device, NOxBOXi, do not infringe those patents. (D.I. 285 ¶¶ 105-

83a
109). Plaintiffs contend that Defendants directly infringe, induce infringement of, and contribute to infringement of the DSIR patents’ asserted claims. (D.I.
286 ¶¶ 22-24). Plaintiffs assert that Defendants directly
infringe the device claims of the DSIR patents because
“the DSIR System is reasonably capable of being used
with Noxivent to satisfy the limitations” of the DSIR
claims.” (D.I. 286 at 8). Plaintiffs also contend that Defendants’ NOxBOXi device directly infringes claim 15
of the ’795 patent because the method claim would be
performed by an employee or agent of Praxair—
namely, a service technician. (D.I. 286 at 8 n.8). Because the court finds that Defendants’ ANDA and
510(k) application are not capable of directly infringing
the DSIR patents, the court will not address Plaintiffs’
arguments regarding induced and contributory infringement.
1.

Legal Standard

The determination of whether an accused method
infringes a claim in a patent has two steps: (1) construction of the claim to determine its meaning and
scope; and (2) comparison of the properly construed
claim to the method at issue. See Tanabe Seiyaku Co.
v. United States Int’l Trade Comm’n, 109 F.3d 726, 731
(Fed. Cir. 1997) (citing Markman v. Westview Instruments, Inc., 52 F.3d 967, 976 (Fed. Cir. 1995) (en banc),
aff’d 517 U.S. 370 (1996)). The patent owner has the
burden of proving by a preponderance of the evidence
that “every limitation of the patent claim asserted to be
infringed is found in the accused [method or device],
either literally or by equivalent.” SmithKline Diag.,
Inc. v. Helena Lab. Corp., 859 F.2d 878, 889 (Fed. Cir.
1988). Under this standard, a patent owner does not
have to produce “definite” proof of infringement, but
must instead demonstrate that “infringement was more

84a
likely than not to have occurred.” See Warner-Lambert
Co. v. Teva Pharms., USA, Inc., 418 F.3d 1326, 1341
n.15 (Fed. Cir. 2005) (citing Advanced Cardiovascular
Sys., Inc. v. Scimed Life Sys., Inc., 261 F.3d 1329, 1336
(Fed. Cir. 2001)). The application of a patent claim to
an accused product is a fact-specific inquiry. See Kustom Signals, Inc. v. Applied Concepts, Inc., 264 F.3d
1326, 1332 (Fed. Cir. 2001).
In the ANDA context, 35 U.S.C. § 27l(e)(2)(A) provides that it shall be an act of infringement to submit an
ANDA “if the purpose of such submission is to obtain
approval … to engage in the commercial manufacture,
use, or sale of a drug … claimed in a patent or the use of
which is claimed in a patent before the expiration of
such patent.” 35 U.S.C. § 271(e)(2)(A). More specifically, as it relates to the instant matter, 35 U.S.C. § 271(a)
states that “whoever without authority makes, uses,
offers to sell, or sells any patented invention, within the
United States or imports into the United States any
patented invention during the term of the patent therefor, infringes the patent.” 35 U.S.C. § 271(a). To prove
direct infringement under § 271(a), the plaintiff must
demonstrate that the defendants performed or used
each and every step or element of a claimed method.
Warner-Jenkinson Co. v. Hilton Davis Chem. Co., 520
U.S. 17, 29 (1997). For a method patent claim, specifically, a single party or a joint enterprise must perform
all of the steps of the process for direct infringement to
occur. Joy Techs., Inc. v. Flakt, Inc., 6 F.3d 770, 775
(Fed. Cir. 1993). For the reasons that follow, the court
concludes that Praxair’s Noxivent cylinder and its
NOxBOXi device do not infringe the device or method
claims of the DSIR patents.

85a
2.

Noxivent

Praxair advances a two-part non-infringement argument with regard to its ANDA for Noxivent. (D.I.
285 ¶¶ 107-108). First, use of Noxivent with the DSIR
device cannot directly infringe the claims of the DSIR
patent because Noxivent is incompatible with the
DSIR device. Id. ¶ 109. Second, even if the Praxair
cylinder was “reasonably capable” of use with a DSIR
device, as Plaintiffs’ contend, such use would not satisfy
the device or method claims of the DSIR patents. Id.
¶¶ 105, 106.
The court agrees with Praxair that its cylinders are
incompatible with the DSIR system. There is no dispute that, without an INOmeter, the DSIR device will
not deliver nitric oxide—the “therapy gas”—as required by all of the asserted claims of the DSIR patents. ’794 patent, col. 17 ll. 15-32, col. 18 ll. 42-59; ’209
patent, col. 16 ll. 22-40, col. 17 l. 35-col. 18 l. 31; ’795 patent, col. 16 ll. 42-57, col. 18 ll. 17-32; ’802 patent, col. 16
ll. 40-58, col.17 l. 16-col. 18 l. 3; ’911 patent, col. 16 ll. 4160, col. 17 l. 17-col. 18 l. 3. Ikaria’s internal documents
confirm that fact. lkaria’s communications with the
FDA reflect that the INOmax DSIR “is not intended
to, and indeed cannot, operate with gas cylinders other
than INOmax cylinders.” DTX256 at 21. In a supplement to that communication with the FDA, lkaria clarified that “the INOmax DSIR must detect a valid INOmax cylinder in order to set the dose and initiate therapy.” DTX258 at 2. lkaria’s Associate Director of Device Development, Mr. Aker, confirmed that, in order
to use a generic cylinder—like Praxair’s proposed cylinder—“an INOmeter would have to be present in
some capacity.” Tr. 129:3-4. The record is clear that
Praxair’s cylinder does not have an INOmeter. Tr.
868:19-22; 129:3-14. Further, Praxair does not sell IN-

86a
Ometers. Tr. 114:9-18. There is also no evidence that
lkaria intends to license INOmeters to Praxair. Id. As
such, use of a Praxair cylinder with a DSIR device cannot infringe the claims of the DSIR patents.
While Ikaria acknowledges that the DSIR device
will not function without an INOmeter, its main argument for infringement of the DSIR patents is that the
asserted claims require only “an accused apparatus
[that] possess[es] the capability of performing the recited function.” M2M Sols. LLC v. Motorola Sols., Inc.,
No. CV 12-33-RGA, 2016 WL 70814, at *4 (D. Del. Jan.
6, 2016). As discussed in more detail below, Ikaria’s
expert witness, Dr. Schaafsma, advanced three scenarios whereby the Praxair cylinder, in conjunction with
the DSIR device, would deliver gas to a patient. (D.I.
286 ¶ 9). Because the Praxair cylinder is reasonably capable of delivering gas when used with a DSIR device,
according to Plaintiffs, the Praxair cylinder directly infringes the DSIR patents. The court finds that Ikaria
cannot meet its burden of proving infringement of the
DSIR patents by a preponderance of the evidence with
a demonstration that the Praxair cylinder is reasonably
capable of being used with the DSIR device.
The cases that Plaintiffs cite are inapplicable here.
The capability language on which Plaintiffs rely was first
discussed in Intel Corp. v. U.S. Int’l Trade Comm’n, 946
F.2d 821 (Fed. Cir. 1991). In that case, the Court of Appeals found that because the claims were drawn to ‘‘programmable selection means,” the accused apparatus
need only be capable of being programmed to operate in
the infringing mode. Intel, 946 F.2d at 832 (emphasis
added). The Federal Circuit has repeatedly emphasized
that Intel and its progeny are applicable to situations
where the allegedly infringing product is capable of performing the claimed functions when sold. See Finjan,

87a
Inc. v. Secure Computing Corp., 626 F.3d 1197, 1205
(Fed. Cir. 2010) (“Thus, it is undisputed that software
for performing the claimed functions existed in the
products when sold.”); Fantasy Sports Props. v.
Sportsline.com, Inc., 287 F.3d 1108, 1118 (Fed. Cir. 2002)
(“[A]lthough a user must activate the functions programmed into a piece of software by selecting those options, the user is only activating means that are already
present in the underlying software.”).
Here, as previously discussed, the Noxivent cylinder does not come with an INOmeter. Even if the Noxivent cylinder is used with a DSIR device and an INOmeter, Praxair does not supply the INOmeter—it is
not part of the Noxivent cylinder when sold. Further,
The DSIR device is not configured to function with a
non-INOmax cylinder. Customers do need to modify
the DSIR device—which is supposed to be used with
INOmax cylinders only, PTX54 § 2.2—to get it to work
a Noxivent cylinder, as evidence by Dr. Schaafsma’s
demonstrations. See Finjan, 626 F.3d at 1205 (affirming the jury’s finding of infringement because there
was no evidence that customers had to modify the underlying code to make the accused product operate in
an infringing manner). Therefore, the key infringement
inquiry applicable to this case is whether there were
“specific instances of direct infringement” or whether
“the accused device necessarily infringes the patent[s].”
ACCO Brands, Inc. v. ABA Locks Mfrs. Co., 501 F.3d
1307, 1313 (Fed. Cir. 2007). Just because it may be possible under some scenario to deliver nitric oxide using
the DSIR device and a Praxair cylinder does not mean
Defendants infringe the DSIR patents. See High Tech
Medical Instrumentation, Inc. v. New Image Indus.,
Inc., 49 F.3d 1551, 1555 (Fed. Cir. 1995) (“A device does
not infringe simply because it is possible to alter it in a

88a
way that would satisfy all the limitations of a patent
claim.”); ACCO, 501 F.3d at 1313 (hypothetical instances of direct infringement will not suffice). Clearly,
there cannot be evidence of actual use of a Praxair cylinder with a DSIR device because Praxair’s ANDA has
not yet been approved. Therefore, to demonstrate infringement, Ikaria must show that use of a Praxair cylinder with a DSIR device necessarily infringes the patent. Ikaria has not met its burden in that regard.
Even under Dr. Schaafsma’s various scenarios, the
claims of the DSIR patents are not met.
Claim 1 of the ’794 patent, the gas delivery device
claim, requires, among other things: (1) “a gas source
to provide therapy gas comprising nitric oxide”; (2) “a
valve attachable to the gas source … a valve actuator
to open or close the valve to allow the gas through the
valve to a control module that delivers the therapy
gas”; and (3) a circuit including both “a memory to store
gas data” and “a processor and a transceiver in communication with the memory.” Id. col. 17 ll. 15-28. The gas
data stored in the memory includes “one or more of gas
identification, gas expiration date and gas concentration.” Id. col. 17 ll. 24-26. The processor and transceiver in communication with the memory “send and receive signals” that: (1) “communicate the gas data to
the control module that controls gas delivery to a subject”; and (2) verify one or more of the gas identification, the gas concentration,” and the gas expiration
date. Id. col. 17 ll. 27-32.
Dr. Schaafsma’s first scenario included an INOmax
cylinder with an attached INOmeter used in conjunction with a Noxivent cylinder. (D.I. 286 ¶ 9). The second scenario required use of an INOmax transport cylinder in connection with two Noxivent cylinders. Id.
The last scenario took an INOmeter off of an INOmax

89a
cylinder and installed it on a Noxivent cylinder.12 Id.
All of the scenarios are alike in that they require use of
an INOmeter for gas to flow from the Noxivent cylinder. Plaintiffs argue that the limitations of the DSIR
patents are met because the INOmeter is still verifying
one or more of the gas identification, the gas concentration, and the case expiration date. (D.I. 286 ¶¶ 12-13).
It is still communicating the gas data13 to the control
module. And it is still comparing the gas data with the
patient information. Further, Plaintiffs claim that “at
least one piece of ‘gas data’ or ‘drug data’ will always be
the same for the INOmax and Noxivent brand gas: the
gas or drug ‘identification.’ ” (D.I. 286 ¶ 13). Under any
scenario, however, the INOmeter is capable only of
communicating, verifying, and comparing information
about the INOmax cylinder to which it was attached
during manufacture. The gas data—concentration,
identification, and expiration date—are all programmed
into the INOmeter at the factory. See Tr. 131:22-132:2.
Corrupting the DSIR device to deliver gas from the
12

Plaintiffs’ proposed findings of fact and conclusions of law
also detail a scenario where Praxair could program an INOmeter
to reflect the gas data of the Noxivent cylinder. (D.I. ¶ 12). Plaintiffs support that contention with evidence of a company in Europe
that programs INOmeters to reflect the gas data of non-INOmax
cylinders. Id. That evidence is wholly irrelevant, however. First,
the actions of a separate company in Europe cannot inform the
infringement inquiry in this case. Second, as previously noted,
Praxair does not sell INOmeters, and Ikaria does not license INOmeters to Praxair. How Praxair could, therefore, program INOmeters to reflect the gas data of a Noxivent cylinder is a mystery
to the court.
13

Certain asserted claims require “drug data” instead of “gas
data.” See ’802 patent, col. 16 ll. 40-58, col.17 l. 16-col. 18 l. 3; ’911
patent, col. 16 ll. 41-60, col. 17 l. 17-col. 18 l. 3. Nonetheless, both
parties’ experts treated “drug data” the same as “gas data.” (D.I.
286 ¶ 13); (D.I. 285 at 36 n.42).

90a
Praxair cylinder does not miraculously populate the
INOmeter memory with variables reflecting the Praxair gas data. Just because data about the INOmax cylinder happens to match some data about the Praxair
cylinder—namely, concentration and gas-type—does
not mean that Praxair meets the limitations of the
DSIR patents. Such happenstance or coincidence cannot vindicate the purpose of the patents: To “[i]mprove
patient safety by reducing user error.” Tr. 114:22-25.
Claim 1 of the ’794 patent requires “a gas source to
provide therapy gas comprising nitric oxide.” ’794 patent, col. 17 l. 16. Further, it requires a control module
that “controls gas delivery,” id. col. 16 ll. 54-55, and verifies the gas data. Id. ll. 55-57. In all of Dr. Schaafsma’s
scenarios the INOmeter is providing information about
the INOmax cylinder to which it was attached during
manufacture. (D.I. 285 ¶ 107); Tr. 840:5-841:11. The
control module is not receiving information about the
Praxair cylinder, even in the scenario where an INOmeter is actually placed on top of a Praxair cylinder.
Though gas data is communicated to the control module, the claim term “verify” is rendered meaningless
under Dr. Schaafsma’s scenarios. If the INOmeter is
sending information about the INOmax cylinder it is, or
was, attached to, then the control module is verifying
only that information—not the Praxair cylinder gas data. As Dr. Stone’s testimony reveals, simply putting an
INOmeter near or on a Praxair cylinder “cannot verify
any data from the Praxair cylinder, the gas that’s being
delivered to the patient. That’s just a free-flowing
piece of information that has no capability of providing
verification.” Tr. 837:23-838:1. That sham “verification” would not vindicate the purpose of the control
module as defined by the claim: “control gas delivery to
a subject,” ’741 patent, col. 17 ll. 29-30, and “deliver the

91a
therapy gas comprising nitric oxide in an amount effective to treat or prevent hypoxic respiratory failure.”
Id. ll. 20-22. The communication between the INOmeter and the control module has no influence on the gas
delivered to the patient because the control module is
not communicating with the gas source. Use of a Praxair cylinder with a DSIR device would fail to effectuate
the purpose of the DSIR invention as a whole.
Claims must be read in light of the specification.
See Phillips v. AWH Corp., 415 F.3d 1303, 1313 (Fed.
Cir. 2005) (“[T]he person of ordinary skill in the art is
deemed to read the claim term not only in the context
of the particular claim in which the disputed term appears, but in the context of the entire patent, including
the specification.”). Here, the specification of the ’794
patent14 explains that “[t]here is a need for a gas delivery device that integrates a computerized system to
ensure that patient information contained within the
computerized system matches the gas that is delivered
by the gas delivery device.” ’794 patent, col. 1 ll.40-43.
Further, “the safety benefits of the gas delivery system
described herein include detecting a non-conf[o]rming
drug or gas source, an expired drug or gas, incorrect
gas type, incorrect gas concentration and the like.” Id.
col.11 ll. 54-57. Mr. Acker—an engineer at Mallinckrodt
involved in the design and development of the INOmax
DSIR device—confirmed the importance of the verification step. He answered affirmatively when asked:
“If you did [not] verify the information about the gas
being delivered to the patient, you could [not] meet all
those enhanced safety requirements that the DSIR was
intended to provide; is that correct?” Verification occurs when am INOmax cylinder is used with a DSIR
14

The DSIR patents all share a common specification.

92a
device because the INOmax cylinder’s INOmeter is
hardcoded during manufacturing with information
about the INOmax cyclinder to which it is attached.
Because “verification” of the gas data—within the
meaning of the claims of the DSIR patents—does not
occur when a Praxair cylinder is used with the DSIR
device, the court finds that Praxair’s ANDA does not
infringe the claims of the DSIR patents.15
3.

NOxBOXi

Ikaria alleges that Praxair’s §5l0(k) device—the
NOxBOXi—infringes claim ’15 of the ’794 patent. (D.I.
286 at ¶ 18). Claim 15, the method claim of the ’794 patent, requires “establishing communication between a
gas delivery device and a control module for administering therapy gas to a subject via a first transceiver
and a second transceiver.” Col. 18 ll. 44-46. The gas
delivery device has a gas source and a first transceiver
that communicates with a “first memory” that stores
the same type of gas data required by claim 1 of the
’794 patent. Id. ll. 48-49. The control module has a
“second transceiver and a second memory.” Id. l. 52.
According to the method, the gas data from the first
transceiver is communicated to the second transceiver,
and the gas data in the first memory is compared to the
“patient information stored in the second memory to
verify the gas data.” Id. ll. 55-56.
Plaintiffs’ expert, Dr. Schaafsma, represented that
claim 15 was met because NOxBOXi’s internal components, the Mediboard and the Single Board Computer
(“SBC”), constituted the gas delivery device and control module, respectively, which communicated to ad15

The court finds no direct infringement of the DSIR device
claim of the ’794 patent. Accordingly, it will not undertake an indirect infringement analysis.

93a
minister therapy gas to a patient. Tr. 446:5-18. Defendants contend that the NOxBOXi cannot infringe
because it lacks a gas source and a gas delivery device.
(D.I. 285 ¶ 111). Even when the NOxBOXi does have a
gas source, according to Defendants, there exists no
gas delivery device in the system because the Praxair
cylinder does not come with a device attached, having
with it a first transceiver and memory that is capable of
storing gas data. Id. Defendants also argue that there
is no communication between the cylinder and the
NOxBOXi, meaning that the NOxBOXi cannot receive
gas data from the cylinder or any other device. Id. ¶
112. The court is persuaded by Defendants’ argument.
Plaintiffs’ expert looked for ways around the inevitable by arguing that claim 15 does not require the control module and gas delivery device to be separate entities. According to Dr. Schaafsma, claim 15 allows the
two entities to be housed as internal components to one
physical device. (D.L 286 ¶¶ 19-20). Applying that interpretation to the NOxBOXi, Dr. Schaafsma believes
the gas delivery device and the control module exist as
two different circuit boards—the Mediboard and the
SBC, respectively—within the NOxBOXi. See Tr.
357:17-358:9. While the DSIR device has a gas delivery
device that is physically separate from the control
module, the court recognizes and agrees with Dr.
Schaafsma that the claim language does not explicitly
necessitate such physical separation. The conclusion,
however, does not undermine the court’s finding of noninfringement.
Claim 15 requires “communicating the gas data”
from the gas delivery device to the control module, ’794
patent, col. 18 ll. 53-54, and “comparing the gas data with
patient information stored in the second memory to verify the gas data.” Id. ll. 55-56. Under Dr. Schaafsma’s

94a
understanding of the NOxBOXi, the patient information—the gas concentration and the gas identification
that the patient should be treated with—is stored on the
SBC. Tr. 449:2-16. It appears from Dr. Schaafsma’ s rather confusing testimony that a user or a service technician would enter the patient information into the SBC.
Tr. 449:18-21. In an effort to satisfy the claim limitations
under his forced conception of the NOxBOXi’s function,
Dr. Schaafsma explained that “[t]he cylinder concentration from the MediBoard is compared with the cylinder
concentration variable on the SBC.” Id. 451:9-11. Dr.
Schaafsma’s testimony was largely undermined, however, by his admission that the MediBoard’s cylinder concentration local variable is populated with the value held
by the SBC’s cylinder concentration local variable—the
Mediboard receives the value for its cylinder concentration variable from whatever value is held for that variable in the SBC. Tr. 451:18-24.
Dr. Schaafsma conceded a key point: in his description of how NOxBOXi functions, the gas data does not
come from the gas source, but instead, from manual entry of the patient information. As previously explained,
the DSIR patents require that the gas data come from
the gas source that is actually being administered to
the patient. See supra Part B.2. Even if Dr. Schaafsma
did not concede that point, it is undisputed that the
Praxair cylinder does not have a device attached to it
that stores information about the cylinder’s contents.
Unlike the INOmax cylinder which comes with an INOmeter, programmed during manufacturing to reflect
data about the cylinder to which it is attached, the
Praxair cylinder has no way of communicating any data
about its contents. Dr. Schaafsma never explained how
internal communications between circuit boards within
the NOxBOXi satisfied the claim limitation requiring

95a
that data from the gas source be communicated to the
control module.
The court also struggles to understand how comparing a value to itself could satisfy the claim phrase,
“verify the gas data.” ’794 patent, col. 18 l. 56. The
SBC—the control module—tells the Mediboard—the
gas delivery device—the cylinder concentration value;
and then the SBC and the Mediboard “communicate”
with each other, according to Dr. Schaafsma, to “verify”
what, by necessity, must be true: the cylinder concentration values match. The term “verify,” when read in
light of the specification, necessitates verifying the gas
source’s gas data. Nowhere in Dr. Schaafsma’s scheme
is the gas data from the actual cylinder used with the
NOxBOXi compared with the patient information and
verified. For those reasons, the NOxBOXi does not infringe claim 15 of the ’795 patent.
C.

Sensor-Drift Patent

Defendants do not dispute the validity of the sensor
drift patent.· Instead, they argue that they do not infringe. Because the sensor drift patent discloses a
method and system implemented as a software upgrade
to the DSIR, Tr. 101:22-25, Defendants arguments for
non-infringement closely follow their arguments for noninfringement of the DSIR device. (D.I. 285 ¶ 115). The
court, therefore, finds that there could be no direct infringement of the sensor drift patent for similar reasons
as those articulated above. See supra Part B.2. Because
the court finds no direct infringement, there also cannot
be induced infringement of the ’9794 patent’s method
claims. Even if there was direct infringement, however,
Praxair still does not induce infringement. The court
will apply the same infringement standard it used when
considering infringement of the DSIR patents.

96a
In 2015, Ikaria began replacing hospitals’ DSIR
units with DSIR plus units. Tr. 103:18-22. The DSIR
plus device was not, in fact, a new device, but instead, a
“major usability software upgrade … to the DSIR.” Id.
101:24-102:8. According to Mr. Acker, one of the inventors named on the sensor drift patent, another key feature that went into the DSIR plus system was “the
drift compensation technology” also called “automatic
low calibrations.” Tr. 104:8-12. The ’794 patent describes that sensor drift technology. Id. 108:11-15. Mr.
Acker testified that the key aspect of the ’794 patent is
“the fine calibration intervals that take place after step
changes in dose.” Id. 169:1-2.
First, for the reasons previously explained, physicians or service providers cannot directly infringe the
claims of the ’9794 patents because use of a Praxair cylinder with a DSIR does not allow the device to “establish[], via a … system controller, a dosage of nitric oxide,” ’9794 patent, col. 31 ll. 7-8, or “deliver[], via a flow
control valve, a therapeutic gas comprising nitric oxide.”
Id. ll. 9-11. The same would be true when a Praxair cylinder is used with a DSIR plus because the software upgrade did not affect the functionality of the device. Setting a dose or delivering nitric oxide through the DSIR
would still require the use of an INOmeter, which Praxair’s cylinder does not have. See (D.I. 285 ¶ 115).
Second, even if physicians did directly infringe the
claims of the ’9794 patent, Praxair is not liable for induced infringement. In order to induce infringement,
Praxair’s label must “encourage, recommend, or promote infringement.” Takeda Pharm. U.S.A., Inc. v. W.Ward Pharm. Corp., 785 F.3d 625, 631 (Fed. Cir. 2015).
It is well established that “mere knowledge of possible
infringement by others does not amount to inducement;
specific intent and action to induce infringement must

97a
be proven.” Id. (quoting Warner-Lambert Co. v. Apotex Corp., 316 F.3d 1348, 1364 (Fed. Cir. 2003) (citation
omitted)).
Ikaria alleges infringement of claims 3, 6, 16, 17,
and 18 of the ’9794 patent. Id. All of those claims, either directly or indirectly, require “identifying, via a
system controller, a time for executing a calibration
from a sensor recalibration schedule stored in a system
controller memory.” ’9794, col. 33 ll. 9-11. Further, all
of the claims require postponing the calibration if an
active alarm “is detected or has been detected within
the predetermined timeframe.” Id. col. 33 ll. 20-23. The
patented method also requires execution of the calibration “if the active alarm is not detected or has not been
detected within the predetermined timeframe,” and “if
the user is not interacting or has not interacted with
the therapeutic gas delivery system within the predetermined timeframe.” Id. col. 33 ll. 24-29.
Ikaria does not dispute that Praxair’ s label does
not require or recommend a specific recalibration
schedule. Tr. 441:19-25. Praxair’s proposed label only
mentions calibration three times. First, it instructs
that, “[i]n the ventilated neonate, precise monitoring of
inspired nitric oxide and NO2 should be instituted, using a properly calibrated analysis device with alarms.”
(D.I. 280 at 2). Second, it requires that “[t]he system …
be calibrated using a precisely defined calibration mixture of nitric oxide and nitrogen dioxide. Id. Lastly, it
counsels that “[i]f there is an unexpected change in NO2
concentration, or if NO2 concentration reaches 3 ppm
when measured in the breathing circuit, then the delivery system should be assessed, and the NO2 analyzed
should be recalibrated.” Id. at 3. It is evident that the
label’s instructions do not require adherence to a precise calibration schedule. Instead, the label lists a

98a
number of recommendations and precautions applicable
to any calibration method or schedule.
At trial, Ikaria’s expert, Dr. Schaafsma, admitted
that Praxair’s label “does not say anything about how
to calibrate the system at all other than it should be calibrated.” Tr. 442:22-25. Dr. Schaafsma also agreed
with counsel for Defendants that the label does not say
anything about “a time for executing a recalibration,”
“postponing a recalibration if an alarm is detected,” or
performing a recalibration if an alarm is not detected.”
Id. at 442:25-443:8. Dr. Schaafsma concluded that
Praxair’ s label “requires a calibrated device and says it
should be calibrated using precise gas mixtures, but
other than that, it has no specifics about what those
things mean.” Id. 443:12-14. In fact, Dr. Schaafsma
agreed that the Praxair label allowed for use of a Praxair cylinder with a device that performed none of the
recalibration steps of the ’9794 patent. Id. 443:12-22.
Given Dr. Schaafsma’s admissions, Plaintiffs did not
meet their burden of proving that Praxair induced infringement of the ’9794’s method claims.
IV. CONCLUSION
For the reasons stated above, the court concludes
that Praxair proved, by clear and convincing evidence,
that the HF patents are invalid under 35 U.S.C. § 101.
Ikaria failed to prove by a preponderance of the evidence that Praxair infringed the DSIR patents and
Sensor Drift patents.
Dated: September 5, 2017

/s/ Gregory M. Sleet
UNITED STATES DISTRICT JUDGE

99a
APPENDIX C
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1019
INO THERAPEUTICS LLC, MALLINCKRODT
HOSPITAL PRODUCTS INC., MALLINCKRODT
HOSPITAL PRODUCTS IP LTD.,
Plaintiffs-Appellants,
v.
PRAXAIR DISTRIBUTION INC., PRAXAIR INC.,
Defendants-Appellees.
Appeal from the United States District Court for the
District of Delaware in No. 1:15-cv-00170-GMS,
Judge Gregory M. Sleet.
ON PETITION FOR REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, HUGHEs, and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellants INO Therapeutics LLC, Mallinckrodt
Hospital Products Inc. and Mallinckrodt Hospital
Products IP Ltd. filed a petition for rehearing en banc.
A response to the petition was invited by the court and

100a
filed by Appellees Praxair Distribution Inc. and Praxair Inc. The petition was first referred as a petition for
rehearing to the panel that heard the appeal, and
thereafter the petition for rehearing en banc was referred to the circuit judges who are in regular active
service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on November
26, 2019.
FOR THE COURT

November 19, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

